Report No. DODIG-2012-102               June 18, 2012




      Better Cost-Control Measures Are Needed on the
      Army's Cost-Reimbursable Services Contract for
            Logistics Support of Stryker Vehicles
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      Attn: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
AAA                           Army Audit Agency
ACC                           Army Contracting Command
ASA(ALT)                      Assistant Secretary of the Army for Acquisition, Logistics,
                                 and Technology
AWCF                          Army Working Capital Fund
BCA                           Business Case Analysis
CAP                           Contractor Acquired Property
CLS                           Contractor Logistics Support
DFARS/PGI                     Defense Federal Acquisition Regulation Supplement,
                                 Procedure, Guidance, Instruction
DVH                           Double V-Hull
FAR                           Federal Acquisition Regulation
OPTEMPO                       Operational Tempo
ORR                           Operational Readiness Rate
PBL                           Performance-Based Logistics
PEO                           Program Executive Officer
PMO                           Project Management Office
TLCSM                         Total Life-Cycle Systems Management
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics
U.S.C.                        United States Code
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                               4800 MARK CENTER DRIVE
                            ALEXANDRIA, VIRGINIA 22350-1500




                                                                              June 18,2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                TECHNOLOGY, AND LOGISTICS
              AUDITOR GENERAL DEPARTMENT OF THE ARMY

SUBJECT: Better Cost-Control Measures Are Needed on the Army's Cost-Reimbursable
        Services Contract for Logistics Support of Stryker Vehicles
        (Report No. DODIG-20 12-1 02)

We are providing this report for information and use. The Army's cost-reimbursable
services contract for logistics support of Stryker vehicles lacked adequate cost-control
metrics and a tangible deliverable. The contractor was authorized to spend about
$1.453 billion, but we calculated the operational support costs for Stryker vehicles at
about $1.117 billion for 5 years, resulting in about $335.9 million that the contractor used
to accumulate inventory that could have been put to better use. As a result of the audit,
the Project Manager for Stryker Brigade Combat Team identified $152.4 million in
excess inventory that will be used to reduce Program Year 2011 and Program Year 2012
contract requirements. This report is the first of three reports on the effectiveness of the
contractor logistics support strategy for the Stryker family of vehicles.

We considered management comments on a draft of this report when preparing the final
report. The Director, Defense Procurement and Acquisition Policy; Assistant Secretary
of Defense for Logistics and Materiel Readiness; Assistant Secretary of the Army for
Acquisition, Logistics, and Teclll1010gy; Program Executive Officer Ground Combat
Systems; and Executive Director, Army Contracting Command comments conformed to
the requirements of DoD Directive 7650.3; therefore, additional comments are not
required.

We appreciate the cOUltesies extended to the staff. Please direct questions to
Mr. Helll'Y F. Kleinknecht at (703) 604-9324 (DSN 664-9324).




                                         ~D.!t£I:~'!'~
                                            Assistant Inspector General
                                            Acquisition and Contract Management
Report No. DODIG-2012-102 (Project No. D2011-D000CH-0032.000)                       June 18, 2012


                   Better Cost-Control Measures Are Needed
                   on the Army’s Cost-Reimbursable Services
                   Contract for Logistics Support of Stryker
                   Vehicles

                                                            •   establish the cost-reimbursable contract
What We Did                                                     as one of the basic contract forms: either
We evaluated the effectiveness of the contractor                the completion-form contract in which
logistics support strategy for the Stryker family               the contractor is required to deliver a
of vehicles. The Project Management Office for                  specified, definitive end product or the
Stryker Brigade Combat Team (PMO Stryker)                       term-form contract in which the
entered into the contract with General Dynamics                 contractor is required to provide a
Land Systems with a singular focus to achieve                   specified level of effort for a stated
an operational readiness rate (ORR) goal of                     period of time; and
90 percent and actually achieved an ORR in
excess of 96 percent. This report is the first of           •   establish an effective means to measure
three reports and addresses performance metrics                 operational costs and ensure that the
and contract type; subsequent reports will                      level of operational funding was tied to
address the contract funding procedures,                        the actual workload required to sustain
contractor billings, and controls over                          the Stryker vehicle, but instead, used
Government property being managed by the                        estimates made years earlier.
contractor.
What We Found                                            Consequently, the Stryker contractor logistics
                                                         support contract had no tangible deliverable;
PMO Stryker and the Army Contracting                     neither complied with nor met the intent of DoD
Command (ACC)-Warren contracting officer                 performance-based logistics guidance; and did
did not implement adequate cost-control                  not meet Federal Acquisition Regulation
procedures on the cost-reimbursable services             requirements for a cost-reimbursable contract.
contract valued at about $1.5 billion from               In addition, the Army had no means to measure
March 2007 to February 2012 because they did             the efficiency of the contractor’s cost
not:                                                     performance or actual cost overruns or
    • adequately define performance-based                underruns in relation to the fixed fee. Also, the
        contract requirements in clear, specific,        sole focus on operational readiness created an
        and objective terms with measurable              incentive for the contractor to spend all
        outcomes. The contract included a                available funds on Army inventory, valued by
        metric for availability (90-percent ORR),        General Dynamics at about $676.2 million,
        but did not include essential metrics            resulting in little, if any, cost risk for the
        relating to cost-per-unit usage (for             contractor or incentive to control cost.
        example, miles driven) and logistics
        footprint (that is, dollars in inventory);       The contractor was authorized to spend about
                                                         $1.453 billion on the contract, but we calculated
                                                         the operational support costs for Stryker
                                                         vehicles at about $1.117 billion for the first

                                                     i
Report No. DODIG-2012-102 (Project No. D2011-D000CH-0032.000)                      June 18, 2012

5 years, resulting in about $335.9 million used         Additionally, the Director, Defense Procurement
to accumulate inventory that could have been            and Acquisition Policy; Assistant Secretary of
put to better use. As a result of the audit, PMO        Defense for Logistics and Materiel Readiness;
Stryker identified $152.4 million in excess             and the Assistant Secretary of the Army for
inventory that will be used to reduce Program           Acquisition, Logistics, and Technology need to
Year 2011 (October 2011 to February 2012) and           establish a multifunctional team to support PMO
Program Year 2012 (March 2012 to                        Stryker and ACC officials in negotiating the
February 2013) contract requirements.                   next Stryker logistics support contract scheduled
                                                        for award in June 2013.
What We Recommend
Among other recommendations, the Program                Management Comments and
Executive Officer Ground Combat Systems with
the support of the Executive Director, ACC,
                                                        Our Response
should require PMO Stryker to establish and             Management comments were responsive to the
monitor appropriate cost and inventory control          recommendations, and management is taking
metrics, define contract remedies that include          action to address cost-control measures,
both positive and negative fee measures related         contract-type, and operational support funding
to inventory turns and inventory accuracy               issues. PMO Stryker is performing a business
metrics, use one of the basic contract forms            case analysis to determine whether PBL is the
(either term or completion), and define a               appropriate strategy and cost-reimbursable is the
tangible deliverable. Further, the Program              appropriate contract type to execute logistics
Executive Officer Ground Combat Systems                 support of Stryker vehicles. Additionally, PMO
needs to continue to review operational support         Stryker will continue to monitor operational
costs for Stryker vehicles and determine                support costs and consider currently available
whether current funding levels are appropriate.         inventory to satisfy future requirements. Please
We also recommend converting the high-risk,             see the recommendations table on page iii.
cost-reimbursable contract or portions of the
contract to a lower risk, firm-fixed-price
contract.

                           Figure 1. Stryker Vehicle, Mobile Gun System




                                        Source: www.sbct.army.mil



                                                   ii
Report No. DODIG-2012-102 (Project No. D2011-D000CH-0032.000)         June 18, 2012


Recommendations Table

         Management                Recommendations         No Additional Comments
                                  Requiring Comment              Required
Director, Defense Procurement
                                                                     5
and Acquisition Policy
Assistant Secretary of Defense
for Logistics and Materiel                                           5
Readiness
Assistant Secretary of the Army
for Acquisition, Logistics, and                                     2, 5
Technology
Program Executive Officer
                                                                    1, 3
Ground Combat Systems
Executive Director, Army
                                                                     4
Contracting Command-Warren




                                         iii
Table of Contents
Introduction                                                                 1

      Objectives                                                             1
      Background                                                             1
      Review of Internal Controls                                            7

Finding. Inadequate Cost Controls on the Cost-Reimbursable Services
Contract for Logistics Support of Stryker Vehicles                           8

      Performance-Based Contract Did Not Adequately Define Requirements
        With Measurable Outcomes                                             9
      Stryker PBL Contract Was Not Established Using One of the Basic
        Contract Forms                                                      15
      PMO Stryker Did Not Establish an Effective Means to Measure
          Operational Costs to Sustain Stryker Vehicles                     17
      Converting the Cost-Reimbursable Contract to Firm-Fixed-Price Would
         Have Reduced Risk                                                  20
      Multifunctional Support Team Needed to Resolve Stryker Logistics
         Support Contract Issues                                            22
      Management Comments on the Finding and Our Response                   23
      Recommendations, Management Comments, and Our Response                26

Appendices

      A. Scope and Methodology                                              31
             Use of Computer-Processed Data                                 31
             Prior Coverage                                                 32
      B. Performance-Based Logistics Memorandum                             33
      C. Mileage Funding Structure                                          36
      D. Summary of Potential Monetary Benefits                             37

Management Comments

      Defense Procurement and Acquisition Policy                            38
      Department of the Army                                                39
Introduction
Objectives
The overall objective of the audit was to evaluate the effectiveness of the contractor
logistics support sustainment strategy for Stryker vehicles. Specifically, we reviewed
contract funding procedures, contract type, performance metrics, contractor billings, and
controls over Government property being managed by the contractor. See Appendix A
for a discussion of the scope and methodology and prior audit coverage. This report is
the first of three reports and addresses performance metrics and contract type; subsequent
reports will address the other audit objectives.

We performed this audit pursuant to Public Law 110-417, “Duncan Hunter National
Defense Authorization Act for Fiscal Year 2009,” section 852, “Comprehensive Audit of
Spare Parts Purchases and Depot Overhaul and Maintenance of Equipment for
Operations in Iraq and Afghanistan,” October 14, 2008. Section 852 requires:

               thorough audits to identify potential waste, fraud, and abuse in the
               performance of the following: ( 1) Department of Defense contracts,
               subcontracts, and task and delivery orders for—(A) depot overhaul and
               maintenance of equipment for the military in Iraq and Afghanistan; and
               (B) spare parts for military equipment used in Iraq and Afghanistan . . .

Background
Performance-Based Logistics Origin
In 1999, the Aerospace Industries Association proposed the performance-based logistics
(PBL) concept as the preferred sustainment strategy as part of the Joint Aeronautical
Commander’s Group. Aerospace Industries defined PBL as “a weapon system
sustainment strategy that features integrated supply chains and increased
industry/government partnering to meet warfighter performance requirements.”

DoD subsequently endorsed the idea and attempted to use the strategy when it
represented a “best value.” The acting Under Secretary of Defense for Acquisition,
Technology, and Logistics (USD[AT&L]) memorandum, “Performance Based Logistics
(PBL) Business Case Analysis,” January 23, 2004, established guiding principles for
conducting business case analyses to determine the best value when considering PBL
support. Best value was defined as:

               . . . the expected outcome that, in the Department’s consideration,
               provides the greatest overall benefit in response to requirements.




                                                  1
U.S. Army TACOM Life Cycle Management Command
The U.S. Army TACOM 1 Life Cycle Management Command is headquartered in
Warren, Michigan, and is a major subordinate command of the U.S. Army Materiel
Command. According to the Army Web site, 2 the Life Cycle Management Command is
a collaborative organization whose mission is to develop, acquire, field, and sustain
soldier and ground systems for the warfighter through the integration of effective and
timely acquisition, logistics, and cutting-edge technology. The Life Cycle Management
Command facilitates partnerships between the U. S. Army Contracting Command (ACC)
and the colocated Program Executive Offices so that they can cooperatively provide the
full range of life-cycle management services for the weapon systems that they support.
Figure 2 illustrates the chain of command for the main Army components involved in the
Stryker program.

        Figure 2. Organization Chart for Key Army Components Involved in the
                     Stryker Performance-Based Services Contract
                                              Department of the
                                                   Army


                      Army Materiel                         Assistant Secretary of the Army
                        Command                               (Acquisition, Logistics, &
                                                                      Technology)

          Army                   TACOM Life
        Contracting            Cycle Management        Deputy Assistant             Program
        Command                    Command             Secretary of the          Executive Office
                                                        Army Services            Ground Combat
                                                                                    Systems
     Army Contracting
     Command-Warren
                                                                               Project Management
                                                                                  Office Stryker
                                                                                 Brigade Combat
                                                                                       Team


Army Contracting Command
The ACC-Warren, Michigan, previously referred to as TACOM Contracting Center, is at
the TACOM Life Cycle Management Command. The contracting command is
responsible for acquisition support and contracting for many of the Army’s major weapon
systems. The full range of services includes acquisition, fielding, and sustainment of
TACOM Life Cycle Management Command systems, contracting, business advisory, and
production support.




1
    TACOM was formerly known as the Tank-automotive and Armament Command.
2
    The Web site source is http://www.tacom.army.mil/main/index.html.

                                                  2
Assistant Secretary of the Army for Acquisition, Logistics, and
Technology
The Assistant Secretary of the Army for Acquisition, Logistics, and Technology
(ASA[ALT]), as the Army Acquisition Executive, has overarching responsibility for
managing and overseeing the Army’s acquisition of and contracting for services. As
mandated by section 2330, title 10, United States Code (10 U.S.C. § 2330), the Secretary
of Defense is required to establish and implement a management structure for procuring
contract services for DoD. The management structure provided that, at a minimum, the
USD(AT&L) must develop and maintain (in consultation with the Service acquisition
executives) policies, procedures, and best practices guidelines addressing the
procurement of contract services. The USD(AT&L) was also required to work with the
Service acquisition executives to identify the critical skills and competencies needed to
carry out the procurement of contract services on behalf of DoD and to develop a strategy
for recruiting, training, and deploying employees to meet the requirements for such skills
and competencies. The ASA(ALT) established the Deputy Assistant Secretary of the
Army (Services) specifically to oversee contract services within the Army.

Project Management Office Stryker Brigade Combat Team
The Project Management Office for Stryker Brigade Combat Team (PMO Stryker) is a
subsidiary office of the Program Executive Office Ground Combat Systems, which is
under the command of the ASA(ALT). According to the Army Web site, 3 the mission of
the PMO Stryker is to provide proven superior acquisition, development, and sustainment
of the Stryker family of vehicles that afford the warfighter quick response maneuvering,
enhanced survivability and lethality, expanded fight versatility, and proven tactical
agility.

General Dynamics Land Systems
General Dynamics Land Systems (General Dynamics), according to its Web site, 4 is an
international Defense contractor that offers a wide array of land and amphibious combat
systems, subsystems, and components. General Dynamics produced the first Stryker
vehicles in 2002. In addition to the Stryker, General Dynamics has also been responsible
for developing a variety of other combat vehicles such as the Light-Armored Vehicle,
M1 Abrams tank, the Fox vehicle, the Mine Resistant Ambush Protected vehicle, and the
Expeditionary Fighting vehicle.

The Stryker Family of Vehicles
The Stryker family of vehicles is a 19-ton, 8-wheeled, armored vehicle platform,
composed of 10 basic configurations. Originally named the “Interim Armored Vehicle,”
the overall mission of the Stryker is to enable soldiers to maneuver more easily in close
quarters and urban terrain while providing protection in the open terrain.




3
    The Web site source is http://www.peogcs.army.mil/sbct.html.
4
    The Web site source is http://www.gdls.com.

                                                     3
The Stryker family of vehicles consists of the:

   1.   Infantry Carrier Vehicle (Figure 3)             7. Medical Evacuation Vehicle
   2.   Reconnaissance Vehicle                          8. Antitank Guided Missile Vehicle
   3.   Mortar Carrier Vehicle                          9. Nuclear, Biological, Chemical,
   4.   Commander’s Vehicle                                   Reconnaissance Vehicle
   5.   Fire Support Vehicle                            10. Mobile Gun System Vehicle
   6.   Engineer Squad Vehicle

                       Figure 3. Stryker Infantry Carrier Vehicle




                                    Source: www.sbct.army.mil


The Stryker family of vehicles acquisition plan states:

               Comprehensive Contractor Logistics Support (CLS) is executed under
               a performance based contract supporting both garrison and deployment
               vehicles. The contractor is co-located with the units and provides
               National level maintenance and assists with field level maintenance.
               They [General Dynamics] request, receive, store and issue all CLS
               items as well as document part consumption and vehicles repairs. The
               contractor performs all scheduled services as well [as] repair services
               for all components or assemblies with the exception of defined
               Government Furnished items. CLS supports vehicles at all locations.
               Under CLS, GDLS [General Dynamics Land Systems] maintains the
               Stryker vehicles to a “fully mission capable” status.

PMO Stryker Explanation of Operating Environment
Complexities
The Stryker family of vehicles acquisition program began before the events that would
lead us to war in Iraq and Afghanistan. As a part of acquisition reform, the Stryker
vehicle was a non-developmental item, lending itself to a PBL approach through the use
of contractor logistics support (CLS) because the technical data were not readily

                                                 4
available. PMO Stryker stated that the pace of acquisition became an extremely rapid
effort that took 31 months from contract award to the initial operational deployment in
Iraq.

In addition to the rapid effort, the Army’s deployment needs created complexities
requiring concurrent development and production of a common chassis for ten original
Stryker variants before completion of production verification testing. Additionally, the
program had little operational tempo data from garrison deployments that could be used
to identify PBL metrics for deployment, and the first brigade deployment to Iraq, which
included CLS, was in October 2003. This escalated to three Stryker brigades deployed to
Iraq in 2006, requiring sustainment of three brigades for 2 years. As brigades were
eventually redeploying from Iraq, other brigades were deploying to Afghanistan. The
Stryker brigades were now spread across two operational theaters with differing
environments, operational tempos, and differing threats.

Metrics gathered from one theater were not applicable to the new theater. The new threat
in Afghanistan led to an urgent requirement to change the design of the flat-bottom
Stryker vehicles to a more survivable double v-hull (DVH) model. Design, test,
production, and fielding were accelerated to get this new design into the hands of the
soldier within 18 months. This added another new complexity to fleet support as both
flat-bottom and DVH vehicles required support. The Army has deployed a second
Stryker brigade to Afghanistan requiring additional CLS support. The DVH vehicles
increased the variants to 17, which caused additional development, production, and
sustainment complexities. The deployed fleet increased operational miles ten-fold from
when fleets were in garrison/peacetime deployment. The operational environment,
tempo, objectives, deployment, and utilization plans are all fluid as the threat changes in
theater, imparting a higher level of complexity for identifying PBL metrics.

A total of 16 Stryker Brigade Combat Teams were deployed across both theaters and
accumulated an estimated 40 million miles. In addition, 77 brigade vehicles were lost in
battle, 435 vehicles were damaged, and 21 vehicles were reset. Nearly 200 retrofit
applicable engineering change proposals and engineering change orders were developed
since 2005, and 320 kits were developed or fielded to primarily address survivability
issues in both Iraq and Afghanistan. As expected, the increased weight of these kits
increased the failure rates of various drive-train and suspension components. Theater
repair sites could not keep up with the volume of components requiring repair, so
increased quantities of configuration spares were procured to meet operational vehicle
readiness requirements. When newly designed/improved components were successfully
tested and validated, they were incorporated into the supply system, either immediately
replacing an existing part or replacing the part once it was totally depleted from the
supply system, depending on the nature of the required design improvement.

Since 2008, unscheduled maintenance responsibilities were transitioned from the
contractor to the soldier, and the transition is now complete for all garrison units. The
transition for parts ordering from CLS to the Standard Army Management Information



                                             5
System occurred on October 1, 2011, for garrison units. The transition for deployed
units, both unscheduled maintenance and parts ordering, is not scheduled to occur until at
least Spring 2013.

Stryker and General Dynamics Contractor Logistics Support
Contract
On December 21, 2006, the ACC-Warren officials awarded General Dynamics a 6-year
(base year and 5 option years) cost-plus-fixed-fee 5 PBL services contract. The first
5-years of the contract were funded for about $1.5 billion including fees or profit of
$127.1 million (contract W56HZV-07-D-M112 delivery orders 0019 and 0169). The
funding for Contract Year 6 was established in the Stryker requirements base contract at
about $341.2 million including fees, but has not been allocated to a delivery order yet.
Table 1 shows the contract efforts funded on delivery orders or amendments or
modifications to the delivery orders for an annual period of performance from March
through February.

        Table 1. Stryker Logistics Support Costs on Contract W56HZV-07-D-M112
                           From March 2007 to February 2012
        Contract            Period of                                                       Total Cost
                                                   Funded Cost             Fee
         Year              Performance                                                      With Fee
    Delivery Order 0019
                           March 2007 –
           1                                        $232,173,007        $22,822,643         $254,995,650
                           February 2008
                           March 2008 –
           2                                          247,077,563        23,841,305          270,918,868
                           February 2009
                           March 2009 –
           3                                          285,329,161        27,765,278          313,094,439
                           February 2010
                           March 2010 –
           4                                          270,840,960        25,496,758
                           February 2011                                                     296,337,718
        Subtotal                                  $1,035,420,691        $99,925,984       $1,135,346,675
    Delivery Order 0169
                           March 2011 –
           5                                          290,355,086        27,166,999          317,522,085
                           February 2012
         Total                                    $1,325,775,777       $127,092,983      $1,452,868,760*
    *
     Contract value of $1.5 billion includes only contractor logistics support contract line items of more
    than $40 million.


As described in the acquisition plan, General Dynamics is responsible for performing
scheduled and unscheduled maintenance; requesting, receiving, storing, and issuing all
Stryker vehicle spares and repair parts; and documenting all part consumption and


5
  Cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment of a negotiated
fixed fee to the contractor in addition to allowable costs up to the maximum estimated cost obligated on the
contract.

                                                        6
vehicle repairs. General Dynamics provides CLS to maintain all Stryker garrison and
deployment 6 vehicles at a fully mission capable status. As of February 2012,
PMO Stryker fielded 8 Stryker brigades consisting of approximately 2,576 vehicles.
Based on the PBL contract’s total costs for Contract Year 5, the funded logistics support
cost per vehicle was about $123,262.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the Project Management Office for Stryker Brigade Combat Team and
the Army Contracting Command-Warren. Specifically, Stryker Brigade Combat Team,
along with support from the Army Contracting Command-Warren, did not adequately
define performance-based contract requirements, establish the cost-reimbursable contract
as one of the basic contract forms with a tangible deliverable, and establish an effective
means to measure operation costs. Additionally, the performance-based logistics metric
requirements in Army Regulation 700-127, “Integrated Logistics Support,” permitted the
use of only one metric such as an operational availability metric without proper
consideration of other essential cost-control metrics. We will provide a copy of the
report to the senior official responsible for internal controls in the Office of the Assistant
Secretary of the Army for Acquisition, Logistics, and Technology; Program Executive
Office Ground Combat Systems; and Army Contracting Command-Warren.




6
 “Garrison” describes Stryker vehicles stationed at permanent military post. “Deployment” describes
Stryker vehicles that are deployed in theater to support a military operation.

                                                   7
Finding. Inadequate Cost Controls on the
Cost-Reimbursable Services Contract for
Logistics Support of Stryker Vehicles
PMO Stryker and ACC-Warren officials (PMO/ACC officials) did not implement
adequate cost-control procedures on the cost-reimbursable services contract, valued at
about $1.5 billion ($290.6 million annually), for logistics support of Stryker vehicles with
General Dynamics. Specifically, PMO/ACC officials did not:

    •   adequately define performance-based contract requirements in clear, specific, and
        objective terms with measurable outcomes. The contract included a metric for
        availability (90-percent operational readiness rate) but did not include essential
        metrics relating to cost-per-unit usage (for example, miles driven) and the
        logistics footprint (that is, dollars in inventory);

    •   establish the cost-reimbursable contract as one of the basic contract forms: either
        the completion-form contract in which the contractor is required to deliver a
        specified, definitive end product or the term-form contract in which the contractor
        is required to provide a specified level of effort for a stated period of time; and

    •   establish an effective means to measure operational costs and ensure that the level
        of operational funding was tied to the actual workload required to sustain the
        Stryker vehicle, but instead, used estimates made years earlier.

As a result, the Stryker contractor logistics support contract had no tangible deliverable;
neither complied with nor met the intent of DoD guidance as a performance-based
logistics contract; and did not meet Federal Acquisition Regulation (FAR) 16.306, “Cost-
Plus-Fixed-Fee Contracts,” requirements for a cost-reimbursable contract. PMO/ACC
officials were measuring the contractor’s spend rate and operational readiness rate, but
had no means to measure the efficiency of the contractor’s cost performance or actual
contract overruns or underruns in relation to the fixed fee. Further, the sole focus on the
operational readiness rate created an incentive for the contractor to spend all available
funds on CLS inventory (valued by General Dynamics at about $676.2 million for
14,444 items [spare and repair parts], and another 2,318 items were not assigned a value),
resulting in an increased logistics footprint and little, if any, cost risk for the contractor or
incentive to control costs. We calculated that about $335.9 million used to accumulate
inventory could have been put to better use. As a result of the audit, PMO Stryker
identified $152.4 million in excess inventory that will be used to reduce Program
Year 2011 (October 2011 to February 2012) and Program Year 2012 (March 2012 to
February 2013) contract requirements. Also, the cost risk could be reduced further by
converting the high-risk, cost-reimbursable contract or portions of the contract to a lower
risk, firm-fixed-price contract.



                                               8
Performance-Based Contract Did Not Adequately Define
Requirements With Measurable Outcomes
PMO/ACC officials used a cost-reimbursable services contract to provide logistics
support for Stryker vehicles (Stryker PBL contract) that included a minimal set of metrics
(operational readiness rate) and did not effectively use other metrics to further define
contract requirements in clear, specific, and objective terms with measurable outcomes,
as required by statute and DoD guidance. Specifically, PMO/ACC officials limited the
rating of contractor performance to a single measurable outcome of 90 percent for
operational availability (operational readiness rate) and a contract ceiling price and did
not include essential PBL metrics relating to cost-per-unit usage (for example, miles
driven) and the logistics footprint (that is, dollars in inventory).

Performance-Based Contract Guidance Requires Measurable
Outcomes and Standard Performance Criteria
Laws and regulations related to PBLs require contract requirements to be clear, specific,
and objective with measurable outcomes. Section 2330a, title 10, United States Code,
“Procurement of Services: Tracking of Purchases,” states:

               The term “performance-based”, with respect to contract, task order, or
               arrangement, means that the contract, task order, or arrangement,
               respectively, includes the use of performance work statements that set
               forth contract requirements in clear, specific, and objective terms
               with measurable outcomes. [emphasis added]

Policy also recognizes the importance of measuring availability (that is, operational
readiness). However, the metric should not be the exclusive focus of program managers
as minimizing cost and logistics footprint must also be considered. DoD Directive
5000.01, “The Defense Acquisition System,” Section E1.1.17, “Performance-Based
Logistics,” states:

               PMs [Program Managers] shall develop and implement performance-
               based logistics strategies that optimize total system availability while
               minimizing cost and logistics footprint. [emphasis added]

Further, an August 16, 2004, USD(AT&L) memorandum “Performance Based Logistics:
Purchasing Using Performance Based Criteria,” emphasized that PBL arrangements
should be structured to “truly purchase performance,” which is defined in terms of
military objectives. To determine whether the contractor is adequately performing in line
with military objectives under a PBL arrangement, Military Departments must establish
criteria to measure performance. The policy memorandum established the following
five performance criteria for PBL contracts:

               (1) Operational Availability. T he percent of time that a weapon
                   system is available for a mission or ability to sustain an operation’s
                   tempo.




                                                   9
               (2) Operational Reliability. T he measure of a weapon system in
                   meeting mission success objectives (percent of objectives met, by
                   weapon system). D epending on the weapon system, a mission
                   objective would be a s ortie, tour, launch, destination reached,
                   capability, etc.

               (3) Cost Per Unit Usage. The total operating costs divided by the
                   appropriate unit of measure for a given weapon system.
                   Depending on weapon system, the measurement unit could be
                   flight hour, steaming hour, launch, mile driven, etc.

               (4) Logistics Footprint.      The government/contractor size or
                   “presence” of logistics support required to deploy, sustain, and
                   move a weapon system.           Measurable elements include
                   inventory/equipment, personnel, facilities, transportation assets,
                   and real estate.

               (5) Logistics Response Time. T his is the period of time from a
                   logistics demand signal sent to satisfaction of that logistics
                   demand. “L ogistics Demand” refers to systems, components, or
                   resources, including labor, required for weapon system logistics
                   support. [emphasis added]

See Appendix B for the complete USD(AT&L) memorandum. Subsequently, on
November 22, 2005, an USD(AT&L) memorandum, “Total Life Cycle Systems
Management (TLCSM) Metrics,” directed that the five criteria be used as the standard set
of metrics for evaluating overall total life-cycle systems management.

PMO Stryker Officials Measured Only the Operational Availability
                                        The Stryker PBL contract included a metric for
      PMs shall develop and             operational availability called the operational
  implement performance-based           readiness rate (ORR) without similar metrics to
      logistics strategies that         measure cost performance or logistics footprint.
       optimize total system            The ORR reflects the percentage of Stryker vehicles
   availability while minimizing        in a fully mission capable status. The contract
    cost and logistics footprint.       required the contractor to maintain ORR at
     [DoD Directive 5000.01]            90 percent or higher for each brigade on a monthly
                                        basis, which was reported to the PMO Stryker.
Specifically, the contract stated:

               C.9.3.1. Stryker Platform Brigade Operational Readiness Rate (ORR):
               The contractor shall sustain each Brigade during NET (New Equipment
               Training) to preclude a loss of training days and to ensure completion
               of training as scheduled. Upon completion of the Phase II OPNET
               [Operator New Equipment Training] and FLMNET [Field Level
               Maintenance New Equipment Training], the contractor shall maintain
               and sustain a 9 0% Operational Readiness Rate (ORR) by Brigade for
               the Stryker platform (excludes TRADOC [Training and Doctrine
               Command], ORF [Operational Readiness Float] Vehicles and
               Non-Standard SBCT [Stryker Brigade Combat Team] platforms).




                                                10
In a February 18, 2011, memorandum, the former Deputy Project Manager for Stryker 7
considered contractor performance satisfactory as long as the achieved ORR for each
brigade met or exceeded 90 percent.

                           To be effective, the selected measures in a P BL have to be few,
                           meaningful and directly tied to the critical mission requirements.
                           Making everything equally important dilutes effectiveness.
                           Operational Readiness Rates provided a clear focus on what was
                           important to the Army and center on the inherent functions that are
                           necessary to provide Fully Mission Capable (FMC) vehicles.
                           [emphasis added]

Table 2 shows that General Dynamics had consistently exceeded the required 90-percent
ORR target for the seven brigades in deployment or garrison during the
February 16, 2010, through February 15, 2011 contract year.

     Table 2. ORR Percentage From February 16, 2010 through February 15, 2011




                                                                                       September




                                                                                                               November


                                                                                                                           December
                February




                                                                                                                                       January
                                                                                                    October
                                                                             August
      SBCT*




                                March


                                         April




                                                         June
                                                  May




                                                                     July



       1       99.2            99.5     99.7     99.4   99.7     100.0       99.7     99.9         98.1       96.4        99.9        98.9
       2       96.8            98.3     99.4     97.9   97.1         97.7    96.1     95.2         93.8       94.4        96.8        95.9
       3       99.1            99.1     99.2     99.1   98.4         97.5    98.4     96.5         97.6       98.5        97.7        93.6
       4       99.3            99.5     99.1     98.3   99.5         98.5    97.9     N/A          N/A        N/A         N/A         100.0
       5       95.8            96.2     85.6     95.6   99.7         94.1    93.4     94.6         96.8       96.9        97.0        94.3
       6       97.7            97.1     99.6     99.0   98.3         98.4    98.5     95.3         92.7       92.3        97.0        97.2
       7       97.7            97.5     97.2     97.2   97.6      N/A       100.0     98.6         98.3       98.1        99.3        97.3
    Total      97.9            98.2     97.1     98.1   98.6         97.7    97.7     96.7         96.2       96.1        97.9        96.7
                                                                     th                                                    th
    Note: All reports covered the ORR period from the 16 day of the reporting month through the 15 day of the
    following month. Shaded boxes represent when the Stryker Brigade Combat Team was deployed. The
    nonshaded boxes represent Stryker Brigade Combat Team in garrison. “N/A” was inserted into all cells in which
    Stryker brigade vehicles were not fielded during the specific time period.
    *
      Stryker Brigade Combat Team.




7
 The former Deputy Project Manager for Stryker was reassigned as the Deputy Project Manager for Heavy
Brigade Combat Team in August 2011.

                                                                11
Cost-Per-Unit Usage Metric is Needed to Measure the
Effectiveness and Efficiency of Contractor Performance
                                          PMO/ACC officials did not include an essential
      Because miles were used as the
                                          metric relating to cost-per-unit usage or miles
     basis for funding the contract, the
                                          driven in the Stryker PBL contract. Because
      cost per mile would be a logical
                                          miles were used as the basis for funding the
     military objective to measure the
                                          contract, the cost per mile 8 would be a logical
        actual cost efficiency of the
                                          military objective to measure the actual cost
                 contractor.
                                          efficiency of the contractor. Table 3 shows
                                          PMO/ACC officials associated operational
                            9
tempo (OPTEMPO) miles with contract funding to purchase logistics support and the
significant differences in cost per mile between garrison and deployment Stryker
vehicles.

          Table 3. OPTEMPO Miles Associated With Stryker Logistics Funding
                                                                                                       Cost
           Contract Line                                                            OPTEMPO
Mod                                                           Funded Amount                            per
               Item                  Description                                      Miles
                                                                                                       Mile
                                 March 2009 to February 2010

    D7*       0017AA              Garrison (stateside)             $74,815,635          1,639,680     $45.63

    D7*       0017AB                 Deployment                    203,155,689         12,499,200      16.25
               Total                                              $277,971,324         14,138,880     $19.66
Note:
*
  See Appendix C for an excerpt of contract modification D7 of delivery order 0019, which shows funds
being obligated based on expected miles driven.


We would expect that deployed Stryker vehicles subjected to more frequent operations in
treacherous conditions would have a higher cost per mile; however, the variable number
of miles driven for garrison and related fixed costs may also impact the cost per mile.
We calculated that the cost per mile for garrison vehicles was $45.63 and for deployment
vehicles, it was $16.25, resulting in a difference of $29.38 per mile. According to PMO
Stryker officials, the estimated miles to be driven were not considered a factor in
determining the costs to be applied to the contract. Specifically, the PMO Stryker official
stated:

                  Yes, the estimated number of miles driven for garrison and deployment
                  were not taken into consideration when negotiating the cost. L abor,
                  material, and other costs are negotiated directly and independent of
                  miles driven.


8
  The cost per mile is calculated by dividing the cost for a given performance period by the number of miles
expected to be driven.
9
  The OPTEMPO baseline miles represent the miles that the Stryker vehicles in garrison (stateside) and
deployment are expected to drive based on historical data.

                                                    12
According to a General Dynamics parts supply official, General Dynamics did not relate
Stryker vehicle mileage to cost performance because contractor maintenance personnel
inconsistently and inaccurately tracked Stryker vehicle mileage during maintenance
schedules because:

    • maintenance personnel not inputting mileage data and
    • severely damaged vehicles showing false mileage readings or no readings at all.

The former Deputy Project Manager for Stryker stated that OPTEMPO miles were used
as a basis to determine the funding level for the contract to allow PMO Stryker to
associate cost with something tangible. However, the former Deputy Project Manager
also stated that PMO Stryker does not track miles because they were not buying miles but
                                            instead were buying support in terms of
   Despite obligating $278.0 million on     90-percent ORR, which was the only thing
   the Stryker PBL contract to support      that mattered. Consequently, the Stryker PBL
     14.1 million OPTEMPO miles or          contract relied on only one metric (ORR) and
   $19.66 per mile from March 2009 to       the contract defined cost reports, but had
      February 2010, PMO Stryker is         nothing tangible, such as a cost-per-unit usage
       unable to measure contractor         metric, to track or measure cost performance
    performance using a cost per mile       and determine contract overruns or underruns
                   metric.                  as it related to the fixed fee. Despite
                                            obligating $278.0 million on the Stryker PBL
contract to support 14.1 million OPTEMPO miles or $19.66 per mile from March 2009 to
February 2010, PMO Stryker was unable to measure contractor performance using a cost
per mile metric. The Stryker Brigade Combat Team needs to establish and monitor an
appropriate cost-per-unit usage metric if a decision is made to continue logistics support
for Stryker vehicles as a performance-based logistics contract. [Recommendation 1.a
and 1.b – Internal Controls]

Inventory Control Metric is Needed to Control the Logistics
Footprint
The Stryker PBL contract did not include a fundamental inventory control metric that
addressed parts obsolescence to ensure that the logistics footprint or inventory was
minimized. PMO Stryker officials also did not effectively monitor the total value of on-
hand Stryker inventory, were unable to detect or prevent General Dynamics from
stockpiling excess inventory, and were not effectively controlling or disposing of
obsolete inventory. Further, the primary emphasis on a 90-percent ORR provided an
inherent incentive for the contractor to spend all of the authorized funds to accumulate
inventory that ensured that the contractor would meet or exceed the contract’s only
performance standard.

The Army never valued the contractor-managed, Army-owned Stryker inventory. At our
request, General Dynamics assigned a value to the inventory in September 2010 and later
updated the inventory value in January 2012. As of January 2012, the Stryker inventory



                                            13
was valued at about $676.2 million10 (CLS only) for 14,444 different items (spare and
repair parts). General Dynamics was not able to value another 2,318 items for various
reasons.

On January 27, 2012, PMO/ACC officials revised the Stryker quality assurance
surveillance plan to include inventory turns (the number of times inventory is used and
replaced during a given period) and inventory accuracy metrics; therefore, we are not
making a recommendation in this area. However, the plan did not adequately define
contract remedies to include both negative and positive fee measures. The Stryker
Brigade Combat Team needs to define contract remedies that include both negative and
positive fee measures related to inventory turns and inventory accuracy metrics for
Stryker vehicles. [Recommendation 1.c – Internal Controls]

Army Regulation Could Be Interpreted to Allow the Use of Just
One Performance-Based Logistics Metric
Army Regulation 700-127, “Integrated Logistics Support,” states that “at least” one of the
five published PBL metrics (TLCSM metrics) established by USD(AT&L) memorandum
are needed in PBL contracts. However, an ASA(ALT) official stated that the intent of
Army Regulation 700-127 was to encourage the use of more than one metric but not too
many metrics, which could interrupt the continuity of efforts. Specifically,
Section 4-2(c), “General Policy,” states:
                 c. Army PBL criteria requires that the PBL PSSs [Product Support
                 Strategies] for U.S. Army programs shall possess clearly defined,
                 measurable, product support performance outcome(s) that meet
                 warfighter requirements and expectations. The program shall comply
                 with the new Sustainment Key Performance Parameter (KPP), Key
                 System Attributes (KSAs) and/or at least one of the published DOD
                 overarching TLCSM [total life cycle systems management] metrics
                 (or supporting Army metric sub-element(s)). [emphasis added]

The regulation’s language needs to be revised because it allowed PMO/ACC officials’ to
focus only on ORR without proper consideration of other essential cost-control metrics,
such as cost-per-unit usage and logistics footprint. The Assistant Secretary of the Army
for Acquisition, Logistics, and Technology needs to revise Army Regulation 700-127 to
require the use of all necessary DoD overarching total life-cycle systems management
metrics in performance-based logistics contracts to effectively ensure desired outcomes.
[Recommendation 2 – Internal Controls]




10
  General Dynamics Disclaimer for Government-Owned Inventory Valuation: “The information in this
document has been prepared solely for information purposes in response to specific DoD Inspector General
requests regarding government owned inventory. The information as presented herein is not an official
record or deliverable of General Dynamics or any of its subsidiaries and should not be relied upon for any
decision, analysis or evaluation regarding government owned inventory valuation. The data herein has not
been verified or validated for accuracy particularly with respect to dollar valuations.”

                                                   14
Stryker PBL Contract Was Not Established Using One of
the Basic Contract Forms
PMO/ACC officials did not establish a basic contract form that required General
Dynamics to deliver a defined end product or perform a specific level of effort to earn a
fixed fee as required for cost-plus-fixed-fee contracts under the FAR. Although the cost-
                                                    plus-fixed-fee contract type guaranteed
     Although the cost-plus-fixed-fee contract      the contractor’s recovery of cost, it
   type guarantees the contractor’s recovery of     provided the least incentive for the
     cost, it provides the least incentive for the  contractor to control cost and perform
   contractor to control cost and perform in an     in an efficient and economical manner.
         efficient and economical manner.           Further, as a positive outcome for the
                                                    contractor, there was an incentive to
underrun to make the fixed fee a higher percentage of actual cost than of the estimated
cost; however, as a negative outcome for DoD, there is the incentive to deliver a
technically excellent product usually at the expense of cost.

Cost-Plus-Fixed-Fee Guidance Requires Contracts To Be Either
Completion- or Term-Form Contracts
FAR Section 16.306, “Cost-Plus-Fixed-Fee Contracts,” states:
               (a) Description. A cost-plus-fixed-fee contract is a cost-reimbursement
               contract that provides for payment to the contractor of a negotiated fee
               that is fixed at the inception of the contract. The fixed fee does not vary
               with actual cost, but may be adjusted as a result of changes in the work
               to be performed under the contract. This contract type permits
               contracting for efforts that might otherwise present too great a risk to
               contractors, but it provides the contractor only a minimum incentive to
               control costs.

               d) Completion and term forms. A cost-plus-fixed-fee contract may take
               one of two basic forms – completion or term.
               (1) The completion form describes the scope of work by stating a
               definite goal or target and specifying an end product. This form of
               contract normally requires the contractor to complete and deliver the
               specified end product (e.g., a final report of research accomplishing the
               goal or target) within the estimated cost, if possible, as a condition for
               payment of the entire fixed fee. However, in the event the work cannot
               be completed within the estimated cost, the Government may require
               more effort without increase in fee, provided the Government increases
               the estimated cost.
               (2) The term form describes the scope of work in general terms and
               obligates the contractor to devote a specified level of effort for a stated
               time period. Under this form, if the performance is considered
               satisfactory by the Government, the fixed fee is payable at the
               expiration of the agreed-upon period, upon contractor statement that the
               level of effort specified in the contract has been expended in
               performing the contract work. Renewal for further periods of
               performance is a n ew acquisition that involves new cost and fee
               arrangements.


                                                  15
               (3) Because of the differences in obligation assumed by the contractor,
               the completion form is preferred over the term form whenever the
               work, or specific milestones for the work, can be defined well enough
               to permit development of estimates within which the contractor can be
               expected to complete the work.

               (4) The term form shall not be used unless the contractor is obligated
               by the contract to provide a specific level of effort within a definite
               time period.

Stryker Contract Did Not Specify an End Product or a Level of
Effort
The completion-form contract describes the scope of work in terms of a definite goal or
target and a specific end product. The contractor’s completion and delivery of the
specified end product would result in earning the fee. An example of a specified end
product would be a final report on the results of a research project or study performed
that accomplished a stated goal or target. However, the Stryker PBL contract involved
vehicle maintenance and spare parts supply and did not specify a tangible end product or
deliverable that would warrant the earning of a fee. Therefore, the Stryker PBL contract
would not be considered a completion-form contract.

The term-form contract describes the scope of work in general terms and requires the
contractor to contribute a specified level of effort for a specified period of time. If the
contracting officer is generally satisfied with the performance at the end of the
performance period and the contractor certifies to expending the level of effort specified
in the contract, then the fixed fee is paid to the contractor. For example, if the Army
estimated a certain amount of miles to be driven during a specific time period (for
example, 15 million miles at a cost of $300 million results in a cost per mile of $20), then
the contractor’s performance would be measured to the cost-per-mile metric. The
Army’s expected miles driven remaining constant and the contractor’s achievement of
the cost-per-mile metric within a reasonable range would be a condition for earning the
fee. However, Stryker vehicle miles were not tracked, and performance was not
measured using a cost-per-unit usage metric. Therefore, the contract does not meet the
definition of a term-form contract. The Project Manager for Stryker Brigade Combat
Team needs to use one of the basic contract forms, either term or completion, and define
a tangible deliverable if logistics support for Stryker vehicles is procured under a cost-
reimbursable contract as required by FAR 16.306. [Recommendation 1.d – Internal
Controls]

Former Deputy PMO Stryker Considered the Contract to Be a
Hybrid of Both Term- and Completion-Form Contracts
In response to the question of whether the Stryker cost-reimbursable contract was a
completion- or term-form contract, the former Deputy Project Manager for Stryker, who
was also the initial contracting officer that awarded the Stryker PBL contract, provided
the following response.



                                                 16
               Like any complex contract the contract is a hybrid of term and some
               completion efforts. [emphasis added]

The ACC-Warren contracting officer provided a similar response, stating that the labor
for the garrison and deployment efforts were both nonseverable (completion) and term
form. However, as discussed in the previous section, we did not find a specific level of
effort in the contract that would justify payment of a fixed-fee to the contractor and there
was no end product specified to make it a completion form.

We recognize the incentive for PMO Stryker to achieve a high ORR, but an effective and
efficient Stryker PBL cost-reimbursable contract needs to have essential metrics related
to cost-per-unit usage and logistics footprint and a defined deliverable other than ORR.
However, the requirement in Army Regulation 700-127 could be interpreted to mean that
only one of the essential DoD TLCSM metrics was required for PBL support; therefore,
we are not recommending that the performance of PMO/ACC officials be reviewed. We
are recommending that PMO/ACC officials receive appropriate training in PBL
strategies and that their performance standards address whether proper cost control
metrics were included in any PBL or cost-reimbursable contracts. [Recommendations
3.a and 4]

PMO Stryker Did Not Establish an Effective Means to
Measure Operational Costs to Sustain Stryker Vehicles
PMO/ACC officials did not establish an effective means to measure the actual
operational costs to sustain the Stryker vehicle and just monitored General Dynamics’
spend rate within the estimated contract cost ceiling negotiated 5 years earlier. This
occurred because PMO/ACC officials did not use Army working capital funds (AWCFs)
                                                    to purchase the parts and seek
      PMO/ACC officials did not use Army            reimbursement through Stryker brigade
  working capital funds (AWCFs) to purchase         customer orders. AWCFs are generally
   the parts and seek reimbursement through         used to finance the initial cost of
        Stryker brigade customer orders.            products or services, and customer
                                                    orders generate the funds used to
replenish the AWCFs and continue operations. Therefore, by using AWCFs, PMO
Stryker could have determined the actual sustainment cost for the Stryker vehicle based
on the cost of orders generated by Stryker brigades who are the actual consumers of the
parts. This would ensure that the level of operational funding was tied to actual workload
rather than estimates made years earlier.

Additionally, we question the reasonableness of the negotiated contract cost to provide
logistics support for Stryker vehicles because PMO/ACC officials did not consider the
Stryker material inventory accumulated from previous Stryker PBL contracts awarded in
May 2002 and February 2006. As of January 2012, General Dynamics calculated that it
managed approximately $892.3 million of Army-owned inventory, including
$676.2 million of inventory that supports CLS operations. However, PMO Stryker and
General Dynamics could not determine the cost of the inventory that was acquired from
previous contracts. Despite PMO/ACC officials being unaware of the value of the on-

                                               17
hand inventory before awarding the current PBL contract, they negotiated an additional
cost of approximately $1.5 billion, or $290.6 million annually, for General Dynamics to
perform logistics support on the PBL contract for 5 years.

PMO Stryker Did Not Transfer Excess Material Cost to Follow-On
Contract
PMO/ACC officials improperly classified the Stryker spare parts as contractor-acquired
material 11 and then did not identify the actual cost of the material acquired on previous
                                                     contracts and transfer the material to
  when excess contractor-acquired material           the current Stryker PBL contract. The
     on the losing contract is required on a         former Deputy Project Manager for
   follow-on contract, then the material cost        Stryker provided the following
   should be reduced on the losing contract          explanation for PMO Stryker
       and added on the gaining contract.            classifying the Stryker spare parts
               [PGI 245.402-70(6)]                   inventory as contractor-acquired
                                                     material:

                  In the case of CLS [Contractor Logistics Support], the Government
                  takes delivery when the parts are used in performance of the contract,
                  i.e. attached to the vehicle.

Defense Federal Acquisition Regulation Supplement, Procedures, Guidance, Instruction
(DFARS/PGI) 245.4, “Title to Government Property,” states that when excess contractor-
acquired material on the losing contract is required on a follow-on contract, then the
material cost should be reduced on the losing contract and added on the gaining contract.
PGI 245.402-70, “Policy,” states:

                  (6) To the extent that contractor-acquired material that is excess to the
                  needs of the accountable contract is required on follow-on or other
                  contracts, the costs of such property shall be credited to the losing
                  contract; the gaining contract shall be debited accordingly …
                  [emphasis added]

Additionally, we disagree with the former Deputy Project Manager’s assertion that the
spare parts purchased on the Stryker PBL contract are contractor-acquired material, but
even if so classified, the material should have been properly transferred to the gaining
contract and credited or cost reduced on the losing contract.




11
  USD(AT&L) and Office of the Under Secretary of Defense (Comptroller) memorandum, “Military
Equipment Valuation Contractor Acquired Property Business Rule,” December 22, 2007, states that
contractor-acquired property under cost-reimbursable contracts, is property that does not get recorded in an
Army accountability system or on financial statements as Government property until the property is
delivered to the Army. However, Stryker inventory was delivered to the Army and accepted at the
Government-owned-contractor-operated warehouse, managed by General Dynamics.

                                                    18
DoD Office of Inspector General Calculation of Stryker
Operational Costs
As of December 2011, PMO Stryker spent approximately $1.261 billion of the estimated
$1.453 billion funded for Stryker logistics support over the first 5 years. To calculate the
                                                     actual operational support costs for
     The contractor was authorized to spend          Stryker vehicles from March 2007 to
  about $1.453 billion on the contract, but we       January 2012, we used the annual
  calculated the operational support costs for       expenditures minus an annual factor
   Stryker vehicles of about $1.117 billion for      for accumulated inventory (less an
        the first 5 years, resulting in about        obsolescence factor) as shown in
  $335.9 million used to accumulate inventory        Table 4. The contractor was
      that could have been put to better use.        authorized to spend about
                                                     $1.453 billion on the contract, but we
calculated the operational support costs for Stryker vehicles at about $1.117 billion for
the first 5 years, resulting in about $335.9 million used to accumulate inventory that
could have been put to better use.

  Table 4. Office of Inspector General Calculation of Annual Stryker Operational
           Support Costs From March 2007 to January 2012 (in millions)
                                              Inventory
                              Average                                       Operational
Contract      Annual                                       Obsolescence                     Contract
                               Annual      Cumulative                        Support                      Difference
 Period     Expenditure1                                    Allowance3                      Funding5
                              Increase2                                       Cost4
Interim and 1st Follow-On Contracts DAAE07-02-C-B001and W56HZV-06-C-B003 (May 2002 – Feb 2007)
                                                 $332.2
 nd
2 Follow-On Contract W56HZV-07-D-M112 (Mar 2007 – January 2012)
      1             $251.6        $69.9          $402.1            $29.8          $211.4       $255.0          $43.6
      2              267.8         69.9           472.0             34.9           232.8         270.9          38.1
      3              303.1         69.9           541.9             40.1           273.2         313.1          39.9
      4              283.3         69.9           611.9             45.3           258.7         296.3          37.7
      5              155.1         64.3           676.2             50.0           140.8         317.5         176.8
 Total            $1,260.9                                        $200.1        $1,116.9      $1,452.9        $335.9
Note: Totals may not sum due to rounding.
1
  Defense Finance and Accounting Service provided expenditure data as of December 2011.
2
  Inventory accumulated over a 9.7-year period from previous contracts (May 2002 to January 2012), so Average
Annual Inventory is based on on-hand inventory valued by General Dynamics at $676,192,181 (as of January 2012)
divided by 9.7 years.
3
  Obsolescence Allowance calculation is based on applying a 7.4 percent obsolescence factor (doubled the 3.7 percent
factor obtained from the Defense Logistics Agency) to Cumulative Inventory.
4
  Operational Support Cost calculation is based on the Annual Expenditure amount minus the Average Annual Increase
plus the Obsolescence Allowance factor of 7.4 percent.
5
  Contract funding was as of December 2011.




                                                   19
PMO Stryker Comments on Obsolescence Factor
We originally calculated a Stryker operational support cost using a 3.7 percent
obsolescence factor obtained from the Defense Logistics Agency. PMO Stryker
commented that a higher obsolescence factor similar to the Bradley and Abrams vehicles
(14.4 percent to 17.2 percent) may be more appropriate. Using a 15.0 percent
obsolescence factor based on the yearly averages of the Bradley and Abrams vehicles
would mean that more than half, or $405.6 million, of the Stryker CLS inventory is
obsolete. In response to PMO Stryker comments, we doubled the obsolescence factor
used in our calculations to 7.4 percent, which would mean that $200.1 million of the
Stryker inventory is obsolete.

Action Taken During Audit to Reduce Inventory
As a result of the audit, PMO Stryker identified $152.4 million that could be put to better
use. Specifically, on January 26, 2012, PMO Stryker deobligated $68.7 million on
contract W56HZV-07-D-M112, delivery order 0169, in recognition of accumulated
excess inventory that will be used to reduce Program Year 2011 (October 2011 to
February 2012) contract requirements. Further, PMO Stryker renegotiated costs for
Program Year 2012 (March 2012 to February 2013) requirements on delivery order 0269,
resulting in a cost avoidance of $83.7 million. See Appendix D for details on potential
monetary benefits. The Program Executive Officer Ground Combat Systems needs to
continue to review operational support costs for Stryker vehicles and apply more of the
Army’s current Stryker inventory to future requirements, allowing additional contract
funding to be put to better use. [Recommendation 3.b – Internal Controls]

Converting the Cost-Reimbursable Contract to Firm-
Fixed-Price Would Have Reduced Risk
Since May 2002, PMO/ACC officials have made no progress in converting the high-risk
cost-reimbursable contract or portions of the contract to a preferred lower risk firm-fixed-
price contract. According to PMO Stryker officials, the cost-reimbursable contract was
used because of changing fielding and operational requirements. As a result, the Stryker
PBL contract was at a higher risk of misuse, waste, and inadequate accountability.

Preference for Firm-Fixed-Price Contracts
In a March 4, 2009, memorandum, “Government Contracting,” President Barack Obama
discussed the increase in dollars obligated on cost-reimbursement contracts by the
Federal Government since 2001. Further, President Obama stated that excessive reliance
on cost-reimbursement contracts pose a high risk of waste, inefficiency, and subjection to
misuse. The President also explicitly expressed a clear preference for executive agencies
to use fixed-price contracts. Specifically, the President’s memorandum states:

               Excessive reliance by executive agencies on sole-source contracts
               (or contracts with a limited number of sources) and cost-
               reimbursement contracts creates a risk that taxpayer funds will be
               spent on contracts that are wasteful, inefficient, subject to misuse,
               or otherwise not well designed to serve the needs of the Federal
               Government or the interests of the American taxpayer. Reports by

                                                20
               agency Inspectors General, the Government Accountability Office
               (GAO), and other independent reviewing bodies have shown that
               noncompetitive and cost-reimbursement contracts have been misused,
               resulting in wasted taxpayer resources, poor contractor performance,
               and inadequate accountability for results.

                                         [Paragraph omitted]

               In addition, there shall be a preference for fixed-price type
               contracts. Cost-reimbursement contracts shall be used only when
               circumstances do not allow the agency to define its requirements
               sufficiently to allow for a fixed-price type contract. [emphasis
               added]

Proper Use of Cost-Reimbursement Contracts
FAR Subpart 16.3, “Cost-Reimbursement Contracts,” established circumstances for
application of the cost-reimbursement type contracts. FAR 16.301-2, “Application,”
states:

               (a) The contracting officer shall use cost-reimbursement contracts
                   only when—
                        (1) Circumstances do not allow the agency to define its
                             requirements sufficiently to allow for a fixed-price type
                             contract (see 7.105); or
                        (2) Uncertainties involved in contract performance do n ot
                             permit costs to be estimated with sufficient accuracy to
                             use any type of fixed-price contract.
               (b) The contracting officer shall document the rationale for selecting
                   the contract type in the written acquisition plan and ensure that the
                   plan is approved and signed at least one level above the contracting
                   officer …

Army Justification for Using a Higher Risk Contract Type
The Stryker Acquisition Plan, approved by Program Executive Officer Ground Combat
Systems on June 8, 2006, stated that the circumstances do not support a firm-fixed-price
contract, but for future negotiations, the Army will select a contract type that will tie the
fee to contractor performance. The plan states:

               The plan is to develop a s ix year CLS [contractor logistics support]
               Requirements Contract and award annual service support delivery
               orders. Adjustments in scope for any updates required as a result of the
               ASARC [Army Systems Acquisition Review Council] process can be
               incorporated by change order and funded in the requisite delivery order.
               This type of contracting mechanism would require negotiations of a
               complex pricing matrix that reflects the critical elements or parameter
               of costs. Likely elements and pricing ranges would cover the numbers
               of vehicles and mix of vehicles types (either brigades set or individual
               vehicles or vehicles small quantities with specific organization or
               support requirements), geographic or specific locations, as well as
               mileage or operational tempo per mile costs above a certain minimum
               threshold. Although current circumstances do not support a firm
               fixed price contract, in the future[,] contract negotiations will be
               directed toward selecting a contract type or a combination of

                                                 21
               contract types that will tie fee and/or profit to contractor
               performance, and balances the contractor’s risk with the
               contractor’s reward. [emphasis added]

The Army Audit Agency (AAA) issued Report A-2006-0028-ALM, “Stryker Contract
Logistics Support Costs: Office of the Project Manager, Stryker Brigade Combat Team,”
December 6, 2005, which reviewed the PBL cost-reimbursable Stryker Interim
Contractor Logistics Support contract awarded to General Dynamics in May 2002. In the
report, AAA stated that cost-plus-fixed-fee contracts increased the cost risk to the Army
and, as indicated by FAR 16.306, provided minimal incentive for the contractor to control
cost. AAA recommended that the Project Manager develop and implement a plan to
convert the cost-plus-fixed-fee contract to a contract that incentivizes the contractor to
control costs such as a firm-fixed price or cost-plus-incentive contract type. PMO
Stryker responded that the follow-on logistics support contracts would be migrated to a
“lower cost risk contract” that places the appropriate risk on the contractor and adds
positive and negative incentives when sufficient support data were available. However,
as of February 2012, PMO/ACC officials have made no progress moving to a lower risk
contract with appropriate risk and incentives for the contractor. The Project Manager for
Stryker Brigade Combat Team needs to determine which portions of the Stryker logistics
support contract can be transitioned to lower risk firm-fixed-price or fixed-price
incentive contracts and take appropriate action. [Recommendation 1.e]

Multifunctional Support Team Needed to Resolve Stryker
Logistics Support Contract Issues
As emphasized in DoD guidance for PBLs, properly structured PBL arrangements need
essential criteria to measure performance relating to the operational availability,
operational reliability, cost-per-unit usage, logistics footprint, and logistics response time.
Under PBL arrangements, DoD prefers that the contract is firm-fixed price in which the
contractor is required to manage and pay for inventory and DoD pays the contractor for
performance (cost per mile or cost per flight hour). Increased reliability or availability is
critical to an effective PBL contract, but so are appropriate measures to control costs and
the logistics footprint. However, the high-risk contract strategy used for Stryker vehicles
is not the DoD preferred PBL strategy because it is cost-reimbursable, which essentially
required the Army to pay for the entire inventory, while General Dynamics controlled
and managed the inventory to repair Stryker vehicles to meet an ORR. The
recommendations in this report to add appropriate cost-per-unit-usage and inventory
controls to the contract would greatly improve the effectiveness of the contract and
reduce the risk of mismanagement.

In addition, it is important to note that on November, 1, 2005, the Army Acquisition
Executive issued a Stryker sustainment readiness review decision that directed PMO
Stryker to develop a plan for the “Blue-to-Green” (contractor-to-Army) transition no later
than FY 2008. Under the new logistics support strategy, General Dynamics supports
Stryker-unique items while Defense Logistics Agency supports common consumable
items also used on other DoD systems. According to PMO Stryker officials, the “Blue-
to-Green” transition occurred in October 2011 for brigades in garrison and will retain full

                                              22
contractor logistics support for brigades in deployment until the completion of
contingency operations in Afghanistan. It is imperative for the success of the sustainment
strategy for the Stryker vehicle that PMO/ACC officials select the appropriate contract
type that reduces risk to DoD and select the appropriate performance metrics to assess
General Dynamics’ performance.

This report on the unique Stryker logistics support strategy identified a need for
PMO/ACC officials to: include essential metrics relating to cost-per-unit usage and
logistics footprint, establish the cost-reimbursable contract as either the completion form
or the term form, and establish an effective means to measure operational costs and
ensure that the level of operational funding was tied to the actual workload. Therefore, a
multifunctional support team that has the necessary knowledge, technical expertise, and
credibility is needed to support PMO/ACC officials to effectively negotiate the next
Stryker logistics support contract scheduled for award in June 2013. The Director,
Defense Procurement and Acquisition Policy; Assistant Secretary of Defense for
Logistics and Materiel Readiness; and Assistant Secretary of the Army for Acquisition,
Logistics, and Technology need to establish a multifunctional support team made up of
individuals with various skills to ensure that the right mix of knowledge, technical
expertise, and credibility are provided to support PMO/ACC officials in negotiating the
next Stryker logistics support contract scheduled for award in June 2013.
[Recommendation 5 – Internal Controls]

As a result of our preliminary briefing of the identified deficiencies discussed in this
report and PMO Stryker’s need for high-level expertise and support, key DoD officials
have begun a dialogue to form this multifunctional support team.

Management Comments on the Finding and Our
Response
Overall, the Deputy Program Executive Officer Ground Combat Systems (Deputy PEO)
agreed with the audit report conclusions and potential monetary benefits, but stated that
some audit report statements were inaccurate relating to cost-control procedures, contract
type, inventory, obsolescence, and monetary benefits as a result of the audit.

Cost-Controls Procedures
The Deputy PEO stated its interpretation of applicable guidance and regulations resulted
in effective implementation of cost control procedures for the logistics support of Stryker
vehicles. He stated that cost performance reports, monthly management reviews that
specifically addressed the contractors cost reduction and continuous improvement
requirements and weekly phone calls and reviews of all part shortages impacting ORR
showed the broad array of cost control procedures. The Deputy PEO also stated that the
contractor consistently underran the contract (“approximate $10 million per year”) and
that all of these cost savings go to the Government.




                                            23
Our Response
We agree that PMO Stryker implemented procedures to monitor contractor spending of
available funds on the cost-reimbursable contract; however, the procedures did not
effectively control costs or measure how efficiently the contractor was spending the funds
during performance of the contract. The Deputy PEO stated that the contract costs were
underran by $10 million per year. Unfortunately, there was no deliverable in terms of a
specific end product (completion form) or specific level of effort over a specified period
of time (term form) as required by Federal Acquisition Regulation (FAR subpart 16.306)
for cost-plus-fixed fee contracts to measure the amount of any underrun or overrun and
when the contractor had earned the fixed fee.

Contract Type
The Deputy PEO stated that the Stryker contract was constructed consistent with the
guidance and applicable public law and that performance-based acquisition guidance
“Seven Steps to Performance-Based Acquisition” states that “we should not be buying an
end product but rather the results of the products.” He stated that the contract was a
completion type contract and the completion or “results” of the CLS scope was the
90-percent ORR. The Deputy PEO further stated that the performance-based acquisition
guidance does not require a “product” or “tangible” deliverable, but rather a definite goal
or measurable result. Also, he stated that the construction of the contract line item
numbers have always matched regulatory guidance, that performance-based acquisition is
by definition a completion type contract, and that the difference between completion and
level of effort are immediately apparent in Section B (Supplies or Services and
Prices/Costs) of the contract. The Deputy PEO also seemed to suggest that it would not
have been possible to establish some type of cost-per-unit-usage metric, that the use of a
cost metric was not a performance-based acquisition requirement, and that the number of
Stryker vehicles was the driving factor in calculating the CLS estimated contract amount.

Our Response
The Seven Steps to Performance-Based Acquisition is a best practice guide that does not
take precedence over the FAR for cost-plus-fixed-fee contracts. FAR 16.306 states that a
completion-form contract must have a definitive goal and a specified end product. We
agree that the Stryker contract requirement of a 90-percent ORR met the FAR criteria for
a definitive goal, but it did not satisfy the criteria for a specified end product. The
Deputy PEO admitted that the contract had no specific end product. Therefore, the
contract could not meet regulatory requirements for a completion form cost-plus-fixed-
fee contract. Further, the contract line item numbers specified 12-month periods of
performance (March 1 through February 28) making the contract more of a term-form
contract but there was no specific level of effort. Also, as discussed in the report, the
USD(AT&L) memorandum “Performance Based Logistics: Purchasing Using
Performance Based Criteria,” established a cost-per-unit usage metric as an essential
performance criteria for PBL contracts. The memorandum shows cost-per-unit-usage as
an essential metric (operating cost divided by the appropriate unit of measure for the
weapon system) for performance-based logistics contracts.



                                            24
Inventory
The Deputy PEO stated that the inventory growth may be because of reliability
improvements and that over time, the inventory will be consumed but at a slower pace
than expected as a byproduct of reliability growth. Further, he stated that the contractor’s
inventory of parts was directly visible only because the Stryker CLS contract was
executed as a cost reimbursable contract, and the inventory fell under Contractor
Acquired Property (CAP) requirements. In addition, he stated that if the contract was
converted to firm fixed price, the Government would have limited visibility into
inventory. The Deputy PEO also stated that “all material and parts procured and
accountable under previous contracts were transferred to contract W56HZV-07-D-
M112.”

Our Response
If the Stryker contract was a fixed-price contract, the contractor would own the inventory
and Government insight would not be necessary. Also, the material and parts from
previous contracts were all transferred to the current Stryker contract, but the costs of
such property were not credited to the losing contract nor was the gaining contract
debited as would have been required if the property was CAP. However, the Stryker
inventory was not CAP because it was delivered to the Army at the Government-Owned-
Contractor-Operated warehouse. The misclassification of Stryker inventory as CAP will
be discussed in detail in a subsequent report.

Obsolescence
The Deputy PEO stated that a more appropriate obsolescence factor would be 15 percent
based on information from Heavy Brigade Combat Teams (Bradley 14.4 percent and
Abrams 17.2 percent) and that using the higher factor would significantly reduce the
audits conclusion regarding excess Stryker inventory.

Our Response
The Deputy PEO’s suggested obsolescence factor of 15 percent would result in more than
60 percent, or $405.6 million of the Stryker CLS inventory, managed by General
Dynamics, being obsolete. This business practice does not support the DoD
comprehensive inventory management improvement initiative.

Monetary Benefits as a Result of the Audit
The Deputy PEO stated that the contract funding deobligations were a direct result of
executing the Blue-to-Green transition and that while the total savings of $152.4 million
occurred during the time of the audit, there was no connection between the two events.

Our Response
The preponderance of the cost reduction related to Army Working Capital Funds. The
Blue-to-Green transition from contractor-performed maintenance services to DoD would
have reduced contractor labor because field services were transitioning from the
contractor to DoD; however, the transition would have minimal if any impact on the


                                            25
Army Working Capital Funds that were used to purchase Stryker-unique parts from
General Dynamics. In response to a discussion draft of this report, PMO Stryker stated:

               Recent negotiations for spares material incorporated new
               methodologies for calculating the annual requirement of spare parts in
               support of Contractor Logistics Support (CLS). The negotiations took
               into consideration all inventory management processes consisting of
               consumption history, past and future vehicle densities by location,
               repairable candidates, expected unserviceable returns and washouts,
               stock on hand at all locations, stock due in from procurement and
               repair, lead-times and pipeline requirements.

We commend PMO Stryker for developing a new methodology for negotiating logistics
support costs that considered on-hand inventory, inventory due-in, consumption history,
and future requirements. This methodology for evaluating inventory should have been
used throughout the performance of the Stryker contract and did not relate to the Blue-to-
Green transition.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Program Executive Officer Ground Combat Systems
with the support of the Executive Director, Army Contracting Command-Warren,
require the Project Manager for Stryker Brigade Combat Team to:

               a. Establish an appropriate cost-per-unit usage metric if a decision is
made to continue logistics support for Stryker vehicles as a performance-based
logistics contract.

               b. Establish procedures to monitor the cost-per-unit usage metric if
logistics support for Stryker vehicles is procured under a performance-based
logistics contract.

             c. Define contract remedies that include both positive and negative fee
measures related to inventory turns and inventory accuracy metrics for Stryker
vehicles.

              d. Use one of the basic contract forms, either term or completion, and
define a tangible deliverable if logistics support for Stryker vehicles is procured
under a cost-reimbursable contract as required by Federal Acquisition Regulation
Section 16.306, “Cost-Plus-Fixed-Fee Contracts.”

               e. Determine which portions of the Stryker logistics support contract
can be transitioned to lower risk firm-fixed-price or fixed-price incentive type
contracts and take appropriate action.




                                                26
Department of the Army Comments
The Deputy PEO Ground Combat Systems partially agreed with the recommendations
and stated that PMO Stryker will perform a business case analysis (BCA) to determine
whether to use a PBL strategy going forward. He stated that the BCA will also determine
whether a cost-reimbursable contract type is appropriate for the PBL strategy and
whether portions of the PBL contract can transition to firm-fixed-price. If the decision is
made to use a PBL contract, the Deputy PEO stated that PMO Stryker will establish
appropriate metrics, including establishing incentives for inventory turns and inventory
accuracy. Further, if a cost-reimbursable contract is used, he stated that the contract will
be either the term- or completion-form in accordance with the FAR. The Deputy PEO
stated that the BCA is scheduled to be completed by December 31, 2012; the target date
for establishment of additional metrics, incentivizing contract metrics, and either
executing a cost-reimbursable or transitioning to a firm-fixed-price contract, if a PBL
strategy is to continue, is March 31, 2013.

Our Response
The Deputy PEO Ground Combat Systems comments were responsive, and no further
comments are required. The planned actions met the intent of the recommendations.

2. We recommend that the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology revise Army Regulation 700-127 to require the use of all
necessary DoD overarching total life-cycle systems management metrics in
performance-based logistics contracts to effectively ensure desired outcomes.

Department of the Army Comments
The Deputy Assistant Secretary of the Army for Acquisition Policy and Logistics agreed
with the recommendation. The Deputy Assistant stated that Army Regulation 700-127
will be revised to require the use of all necessary DoD overarching TLCSM metrics in
PBL contracts. He stated that the revised Army Regulation is scheduled for release by
the fourth quarter of FY 2013.

Our Response
The Deputy Assistant Secretary of the Army for Acquisition Policy and Logistics
comments were responsive, and no further comments are required. The planned actions
met the intent of the recommendation.

3. We recommend that the Program Executive Officer Ground Combat Systems:

               a. Require that the appropriate staff in the Project Management
Office for Stryker Brigade Combat Team receive training in performance-based
logistics support strategies and that performance standards address whether proper
cost control metrics were included in any performance-based logistics or cost-
reimbursable contracts.




                                            27
Department of the Army Comments
The Deputy PEO Ground Combat Systems agreed with the recommendation and stated
that PEO Ground Combat Systems will sponsor a work directive training for all PEO
staff that will address performance-based acquisition scope development. He stated that
PMO Stryker staff will be required to complete the training courses no later than
December 31, 2012. Further, the Deputy PEO stated that PMO Stryker logistics,
engineering, and business management staff will attend the Performance-Based Life-
Cycle Product Support conference in Washington, D.C. from July 16 – 18, 2012.
According to the Deputy PEO, all project managers’ performance standards already
include two mandatory objectives that address cost saving initiatives.

Our Response
The Deputy PEO Ground Combat Systems comments were responsive, and no further
comments are required. The planned actions met the intent of the recommendation.

              b. Continue to review the operational support costs for Stryker
vehicles and apply more of the Army’s current Stryker inventory to future
requirements, allowing additional contract funding to be put to better use.

Department of the Army Comments
The Deputy PEO Ground Combat Systems partially agreed with the recommendation and
stated that PMO Stryker will continue to review operational support costs to effectively
manage current Stryker inventory. Additionally, he stated that PMO Stryker will
consider all available inventory to satisfy future requirements and program cost estimates
and budgets will be adjusted accordingly, recognizing that some level of excess inventory
is necessary to ensure continuous availability.

Our Response
The Deputy PEO Ground Combat Systems comments were responsive, and no further
comments are required. The planned actions met the intent of the recommendation. We
commend PMO Stryker for identifying opportunities during the audit to satisfy future
requirements with $152.4 million of excess inventory.

4. We recommend that the Executive Director, Army Contracting Command-
Warren, require that the contracting officer for Stryker Brigade Combat Team
receive training in performance-based logistics support strategies and that
performance standards address whether proper cost control metrics were included
in any performance-based logistics or cost-reimbursable contracts.

Department of the Army Comments
The Executive Director, Army Contracting Command, agreed with the recommendation
and endorsed the Executive Director, Army Contracting Command-Warren’s comments.
The Executive Director, Army Contracting Command-Warren, stated that he has directed
the contracting officer and contracting specialist for PMO Stryker to take PBL support
strategies training no later than December 31, 2012. Additionally, he stated that the

                                           28
contracting officials will attend the Performance-Based Life-Cycle Product Support
conference in Washington, D.C. from July 16 – 18, 2012. Further, the Executive Director
stated that no later than December 31, 2012, he will ensure that the contracting officer is
rated against the specific performance objectives, to include proper cost control metrics
in PBL or cost-reimbursable contracts.

Our Response
The Executive Director, Army Contracting Command comments were responsive, and no
further comments are required. The planned actions met the intent of the
recommendation.

5. We recommend that the Director, Defense Procurement and Acquisition Policy;
Assistant Secretary of Defense for Logistics and Materiel Readiness; and Assistant
Secretary of the Army for Acquisition, Logistics, and Technology establish a
multifunctional support team made up of individuals with various skills to ensure
that the right mix of knowledge, technical expertise, and credibility are provided to
support the Project Manager for Stryker Brigade Combat Team and Army
Contracting Command-Warren contracting officer in negotiating the next Stryker
logistics support contract scheduled for award in June 2013.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, also responding for the
Assistant Secretary of Defense for Logistics and Materiel Readiness, agreed with the
recommendation and stated that DoD would identify the appropriate members for a
multifunctional support team lead by the Army to provide continuous assistance to PMO
Stryker with defining requirements, conducting market research, and developing an
acquisition strategy and performance work statement for the Stryker program.
Additionally, the Director stated that the multifunctional support team will receive
service acquisition training offered through Service Acquisition Workshop offered by
Defense Acquisition University.

Our Response
The Director, Defense Procurement and Acquisition Policy, comments were responsive,
and no further comments are required. The Director’s planned actions met the intent of
the recommendation.

Department of the Army Comments
The Deputy for Acquisition and System Management, Office of the Assistant Secretary
of the Army for Acquisition, Logistics, and Technology, agreed with the recommendation
and stated that the Army will use a two-pronged approach to establish the foundation for
Stryker contract success. He stated that the approach will include: identifying members
of an integrated solutions team under Army leadership that will review the acquisition
strategy, conduct market research, define requirements, establish and execute a sourcing
strategy, and manage the Stryker program performance through contract completion; and
leveraging the Service Acquisition Workshop training provided by Defense Acquisition

                                            29
University to assist the team in effectively executing the Stryker follow-on contract.
Additionally, the Deputy PEO Ground Combat Systems stated that the recommendation
would be beneficial to all future DoD PBL contracts.

Our Response
The Deputy for Acquisition and Systems Management comments were responsive, and
no further comments are required. The Assistant Secretary’s planned actions met the
intent of the recommendation.




                                          30
Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through March 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We met with representatives from the Director, Defense Procurement and Acquisition
Policy; Assistant Secretary of Defense (Logistics and Materiel Readiness); Assistant
Secretary of the Army (Acquisition, Logistics, and Technology); the Executive Director,
Army Contracting Command-Warren, Michigan; Program Executive Office Ground
Combat Systems; and the Project Manager for Stryker Brigade Combat Team.

We interviewed personnel from the Army Contracting Command, Warren, Michigan; the
Project Management Office Stryker Brigade Combat Team; General Dynamics Land
Systems, Sterling Heights, Michigan; General Dynamics Land Systems, Auburn,
Washington; and General Dynamics Land Systems, London, Ontario.

We reviewed copies of three Stryker contractor logistics support contracts
(W56HZV-07-D-M112, DAAE07-02-C-B001, and W56HZV-06-C-B003) and
acquisition planning documentation from the Project Management Office Stryker Brigade
Combat Team, dated from May 2002 to January 2012. Specifically, for contract
W56HZV-07-D-M112, we reviewed CLS contract line items of more than
$40 million on delivery orders 0019 and 0169, which totaled $1.5 billion. Additionally,
we reviewed General Dynamics’ contract data requirements list deliverables related to
spare part inventory quantities and prices. Further, we obtained Government
disbursement data for the Stryker contractor logistics support contract from Defense
Finance and Accounting Services-Columbus.

We reviewed the United States Code, Federal Acquisition Regulation, Defense Federal
Acquisition Regulation Supplement and Army Regulation for guidance related to
acquisition planning. We also reviewed criteria related to performance metrics under
PBL contracts, including memorandum guidance from the Under Secretary of Defense
for Acquisition, Technology, and Logistics (see Appendix B for the complete
memorandum). We also used the Electronic Document Access system to obtain and
review specific contract delivery orders and modifications to the current Stryker logistics
support contract.

Use of Computer-Processed Data
We relied on computer-processed data from the Mechanization of Contract
Administration Services System to identify the total amount spent on each contract line
item number under contract W56HZV-07-D-M112 delivery orders 0019 and 0169. The
Mechanization of Contract Administration Services System is an integrated system

                                            31
supporting post award contract administration that is used by Defense Financial
Accounting Service-Columbus to make payments for more complex contracts. To assess
the reliability of Mechanization of Contract Administration Services data, we compared
the data to General Dynamics billing vouchers and determined that the data were
sufficiently reliable for the purposes of this report.

We relied on and reported the total inventory value of about $892.3 million provided by
General Dynamics for 16,344 different items, including about $676.2 million relating to
the contractor logistics support effort. General Dynamics calculated the inventory value
and quantities from various sources: Oracle, Data Management Information System, last
purchase order price, a contractor data requirements list that provided moving-average
prices, and contractor support team estimates. General Dynamics provided the following
disclaimer with the data:

               The information in this document has been prepared solely for
               information purposes in response to specific DoD Inspector General
               requests regarding government owned inventory. The information as
               presented herein is not an official record or deliverable of General
               Dynamics or any of its subsidiaries and should not be relied upon for
               any decision, analysis or evaluation regarding government owned
               inventory valuation. The data herein has not been verified or validated
               for accuracy particularly with respect to dollar valuations.

Although we were unable to verify the accuracy of the General Dynamics’ inventory
value calculation, the exactness of the total inventory calculation is not material to the
report finding and conclusions.

Prior Coverage
During the 5 years before our audit, the Army Audit Agency issued one report discussing
the Army interim logistics support contract for the Stryker vehicle with General
Dynamics. Unrestricted Army reports can be accessed from .mil and gao.gov domains
over the Internet at https://www.aaa.army.mil/.

Army Audit Agency Report No. A-2006-0028-ALM, “Stryker Contract Logistics
Support Costs,” December 6, 2005




                                                 32
Appendix B. Performance-Based Logistics
Memorandum



                                     THE UNDER SECRETARY OF DEFENSE
                                               3010 DEFENSE PENTAGON
                                              WASHINGTON, DC 20301-3010


       /ICQUIO.ITION                                                                AUG 1 6 2004
      TI!'CHNOLOGY
     1'11'10 L-OOISTICS




            MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS

            SUBJECT:            Performance Based Logistics; Purchasing Using Performance Based
                                Criteria


                  The Deputy Secretary of Defense memorandum of February 4, 2004!
            "Implementation of the Defense Business Practice Implementation Board (DDB)
            Recommendation to the Senior Executive Coundl (SEC) on Continued Progress on
            Perfonnancc Based Logistics'', directed that my office issue clear guidance on purchasing
            weapon system logistics support using pcrfonnrrncc-hallerl criteria_ That guidance
            follows.

                   DoD 5000.1, lhe Defense Acquisition Sy:He::m, rcquirc1'i pwgrammanagers lu
            develop and implement performance based logistics (PBL) strategies that optimize total
            system availability while minimizing cost and logislks fuolprint. PBL slrategit.!s may be
            applied at the system, subsystem, or major assembly level depending upon program
            unique circumstances and appropriate business case analysis. PBL arrangements will be
            eonstructed to truly purchase performance, as detn.ilcd in this memorandum.

                          Those purchasing PBL should follow Federal t\cyuisition Regulation (FAR) and
            Defense Federal Acquisition Regulation Supplement (DFARS) guidance, as appropriate,
            for the ucquisition of logistics services and support and should seek to utilir.e FAR Pau
            12- "Acquisition of Commercial Items" to acquire PBr, as a commercial item,
            Additional infotmation regarding PBL implementation is included in the DoD Interim
            Defense Acquisition Guidebook.

                   For PBL, 11 pedormance" is defined in terms of military objectives, using the
            following criteria:

                  (I) Opcrutionul Avoilgbility. The percent of time that u weapon system is available.
                      for a mission or ubility to sustain operations tempo.




                                                           33
                                                                                     - 2 -


   (2) Operational   Reli~bility.   The measure of a weapon system in meeting mission
       success objectives (percent of objectives met, by weapon system). Depending on
       the weapon system, a mission objective would be a sortie, tour, launch, destination
       reached, capability, etc.

   (1) Cost Per Unit Usnge_ The: tot£~1 operating costs divided hy the. nppmpri~te 1mit of
       measurement for a given weapon system. Depending on weapon system, the
       measurement unit could be flight hour, steaming hour, launch, mile driven, etc.

   (4) Logistics Footprint. The government I contractor size or ~'presence'' of logistics
       support required to deploy, sustain, and move a weapon system. Measurable
       elements include inventory I equipment, personnel, facilities, transportation assets,
       and real estate.

   (5) Logistics Response Time. This is the perio.d of time from logistics demand signal
       sent to satisfaction of that logistics demand. "Logistics Demand" refers to
       systems, components, or resources, including labor, required for weapon system
       logistics support.

        PBL metrics should support these desired outcomes. Performance measures will
be tailored by the Military Departments to reflect, specific Service definitions and the
unique circumstances of the PBL an·angements.

       The preferred PRL contracting approach is the usc of long-term contracts with
incentives tied to performance. Award term contracts ~hould be used where possible to
incentivize optimal industry support. Incentives should be tied to metrics tailored by the
Military Departments to reflect their specific definitions and reporting processes. Award
and incentive contracts shall include tailored cost reporting to enable appropriate contract
management and to facilitate future cost estimating and price analysis. PBL contracts
must include a definition or m~trics and should be constructed to provide industry with a
firm period of performance. Wherever possible, PBL contracts should be fixed price
(e.g., llxed price per operating or system operating hour). Lack of data on systems
performance or maintenance costs, or other pricing risk factors may necessitate cost type
contracts for some early stage PI3Ls. Full access to DoD demand data will he
incorporated into all PBL contracts. PBL contracts should be competitively sourced
wherever possible and should make maximum use of small and disadvantaged sources.
PBL contractors should be encouraged to use small and disadvantaged businesses as
subcontractors~ and may be incentivized to do so through PDL contractual incentives tied
to small and disadvantaged business subcontracting goals.




                                           34
                                                                                     - 3 -



       The Ddense Acquisition University (DAU) website (www.dttli.:JXillJ provides
courses in performance hased service acquisition and PHL as well as PBL "lessons
learned." Maximizing use of these DAU resources will increase our ability to support the
warfighter.

       This guidance is effective immediately and will be incorpor:;:~ted into the Defense
Acquisition Guidebook,




                                         35
Appendix C. Mileage Funding Structure




                    36
Appendix D. Summary of Potential Monetary
Benefits
Recommendation             Type of Benefit              Amount of Benefit               Account

                                                  Funds put to better use of
                                                  $152.4 million, including
                                                  $68.7 million deobligated on
                       Internal Control-
                                                  contract W56HZV-07-D-
                       Economy and
                                                  M112 delivery order 0169
                       Efficiency. Reduces                                           Army
                                                  for Program Year 2011
                       costs for future                                              Working
        3.b                                       (Oct 2011 to Feb 2012)
                       requirements by                                               Capital Fund –
                                                  requirements; $83.7 million
                       applying current Army                                         97X4930.001.
                                                  cost avoidance in renegotiated
                       assets to satisfy
                                                  amount on delivery order 0269
                       requirements.
                                                  for Program Year 2012
                                                   (Mar 2012 to Feb 2013)
                                                  requirements.
Note: Potential monetary benefits are funds put to better use or questioned costs.




                                                  37
Defense Procurement and Acquisition Policy Comments




                         OFFICE OF T H E UNDER SECRETARY OF DEFENSE




  •
                                          3000 DEFENSE PENTAGON
                                         WASHINGTON. DC 20301-3000


                                                                                              APF 2 C    ~C·12
    ACQUISmON,
   TECHNOLOGY
   ANDL.OGIS'nCS




         MEMORANDUM FOR DIRECTOR OF PRICING AND LOGISTICS ACQUISITION,
                           OFFICE OF THE INSPECTOR GENERAL

        THROUGH: DIRECTOR, ACQUISITION RESOURCES AND                       ANALYSIS~\?-'(\ \'I--
        SUBJECT: Response to DoDIG Draft Report Better Cost-Control Measures are Needed on the
                  Army's Cost-Reimbursable Services Contract for Logistics Support of Stryker
                  Vehicles (Project No. D20 11-DOOOCH-0032.000)

               As requested, I am providing a response to the general content and recommendations
        contained in the subject report.

        Recommendatio1t 5:
        We recommend that the Director, Defense Procurement and Acquisition Policy; Assistant
        Secretary of Defense for Logistics and Materiel Readiness; and Assistant Secretary of the Army
        for Acquisition, Logistics, and Technology establish a multifunctional support cadre made up of
        individuals with various skills to ensure that the right mix of knowledge, technical expertise, and
        credibility are provided to support the Project Manager for Stryker Brigade Combat Team and
        Army Contracting Command - Warren contracting officer for the next Stryker Logistics support
        contract scheduled for award in June 2013.

        Response:
        Concur. The Department intends to identity appropriate members for a multifunctional support
        cadre which will function under Army leadership. That support cadre will assist the Project
        Manager (PM) with defining requirements, conducting market research, developing the
        acquisition strategy and the performance work statement (PWS). We also intend to leverage the
        Defense Acquisition University to provide a tailored, four-day Service Acquisition Workshop
        (SAW), designed to assist this team in developing the PWS. The Department intends to provide
        continued support to the PM through this multifunctional support cadre through the execution of
        the program.




                                                                      38
Department of the Army Comments




                                   DEPARTMENT OF THE ARMY
                             OFACE OF THE ASSISTANT SECRETARY OF THE ARMY
                                 ACQUISmON LOGISTICS AND TECHNOLOGY
                                          103 ARMY PENTAGON
                                       WASHINGTON DC 20310.0103


     SAAL-LP


     MEMORANDUM FOR INSPECTOR GENERAL, DEPARTMENT OF DEFENSE,
     4800 MARK CENTER DRIVE, ALEXANDRIA, VIRGINIA 22350

     SUBJECT: Better Cost-Control Measures Are Needed on the Army's Cost-
     Reimbursable Services Contract for Logistics Support of Stryker Vehicles (Project No.
     D2011 -DOOOCH-0032.000)


     1. Reference memorandum, Inspector General, Department of Defense (DoD), dated
     29 December 2012, subject as above.

     2 . We concur with recommendation two of the subject draft report which states: 'We
     recommend that the Assistant Secretary of the Army for Acquisition, Logistics, and
     Technology revise Army Regulation 700-127 to require use of all necessary DoD
     overarching total life-cycle systems management metrics in performance-based logistics
     contracts to effectively ensure desired outcomes."

     3. The next revision to Army Regulation 700-127 will require use of all necessary DoD
     overarching total life-cycle systems management metrics in performance-based logistics
     contracts. Our next revision to the regulation is a major revision and is planned for
     release by 4QFY13.

     4. The       of contact for this action




                                               ~'f"'v! .
                                                     '
                                        /         Wim D. Pybus
                                      Deputy Assistant     cretary o the Army
                                         (Acquisition Policy and Logistics)




                                                              39
                              DEPARTMENT OF THE ARMY
                        OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                            ACQUISITION LOGISTICS AND TECHNOLOGY
                                      103 ARMY PENTAGON
                                     WASHINGTON DC 20310




SAAL-SMS                                                                   MAY


MEMORANDUM FOR UNITED STATES ARMY AUDIT AGENCY, 3101 PARK-
CENTER DRIVE, ALEXANDRIA, VA 22302-1596

SUBJECT: Better Cost-Control Measures Are Needed on the Army's Cost·
Reimbursable Services Contract for Logistics Support of Stryker Vehicles (Project No.
D-2011-DOOOCH-0032-000


1. Pursuant to the Department of Defense Inspector General's (DoDIG) Memorandum,
dated 26 Mar 12, the following information is provided to DoDIG request for comments
to their subject draft report.

2. The DoDIG Recommendation one. We recommend the Program Executive Officer
Ground Combat Systems with the support of the Executive Director, Army Contracting
Command- Warren, require the Project Manager for the Stryker Brigade Combat Team
to:
        a. Establish an appropriate cost-per-unit usage metric if a decision is made to
continue logistics support for Stryker vehicles as a performance-based logistics
contract.
        b. Establish procedures to monitor the cost-per-unit usage metric if logistics
support for Stryker vehicles is procured under a performance-based logistics contract.
        c. Define contract remedies that include both positive and negative fee
measures related to inventory turns and inventory accuracy metrics for Stryker vehicles.
        d. Use one of the basic contract forms, either term or completion, and define a
tangible deliverable if logistics support for Stryker vehicles is procured under a cost-
reimbursable contract as required by Federal Acquisition Regulation Section 16.306,
"Cost-Plus-Fixed-Fee Contracts"
        e. Determine which portions of the Stryker logistics support contract can be
transitioned to lower risk firm-fixed-price or fixed-price incentive type contracts and take
appropriate action.

U.S. Army Management Action: See Enclosure: AMSTA-CSC-J, Subject:
MEMORANDUM FOR Director of Pricing and Logistics Acquisition - Acquisition and
Contract Management, Department of Defense Office of the Inspector General, 4800
Mark Center Drive, Alexandria, Virginia 22303-1500, dated 26 April2012.

3. The DoDIG Recommendation three. We recommend that the Program Executive
Officer Ground Combat Systems:




                                                            40
SAAL-SMS
SUBJECT: Better Cost-Control Measures Are Needed on the Army's Cost-
Reimbursable Services Contract for Logistics Support of Stryker Vehicles (Project No.
D-2011-DOOOCH-0032-000


        a. Require that the appropriate staff in the Project management Office for
Stryker brigade Combat Team receive training in performance-based logistics support
strategies and that performance standards address whether proper cost control metrics
were included in any performance-based logistics or cost-reimbursable contracts.
        b.. Continue to review the operational support cots for Stryker vehicles and
apply more of the Army's current Stryker inventory to future requirements, allowing
additional contract funding to be put to better use.

U.S. Army Management Action: See Enclosure: AMSTA-CSC-J, Subject:
MEMORANDUM FOR Director of Pricing and Logistics Acquisition -Acquisition and
Contract Management, Department of Defense Office of the Inspector General, 4800
Mark Center Drive, Alexandria, Virginia 22303-1500, dated 26 April 2012

4. The DoDIG Recommendation five. We recommend that the Director, Defense
Procurement and Acquisition Policy; Assistant Secretary of Defense for Logistics and
Materiel Readiness; and Assistant Secretary of the Army for Acquisition, Logistics, and
Technology establish a multifunctional support cadre made up of individuals with
various skills to ensure that the right mix of knowledge, technical expertise, and
credibility are provided to support the Project Manager for Stryker Brigade Combat
Team and Army Contracting Command-Warren contracting officer for the next Stryker
Logistics support contract scheduled for award in Jun 13.

U.S. Army Management Action: The Department concurs with the DoDIG
recommendation to establish a multifunctional cadre to support the Program Manager
and Contracting Officer in advance of the scheduled contract award. We first intend on
identifying the members of an integrated solutions team under Army leadership that will
review the current strategy, conduct market research, define requirements, establish a
sourcing strategy, execute to strategy, and manage the performance through the life of
the contract. Secondly, we will leverage the Defense Acquisition University in providing
a tailored Service Acquisition Workshop designed to provide four days of training to this
team with the critical skill set necessary to assist them in developing and executing the
next Stryker logistics support contract. We feel this two pronged approach will establish
the necessary foundation for contract success, meeting the intended result of your
recommendation.




                                            2




                                                       41
SAAL-SMS
SUBJECT: Better Cost-Control Measures Are Needed on the Army's Cost-
Reimbursable Services Contract for Logistics Support of Stryker Vehicles (Project No.
D-2011-DOOOCH-0032-000


5. Additional comments from the Program Executive Office-Ground Combat Systems
are included in the Enclosure to assist in providing greater accuracy and clarity for the
final report.




Enclosure




                                           3




                                                         42
                                                                                                    Final Report
                                                                                                     Reference



                                  DEPARTMENT OF THE ARMY
                                   PROGRAM EXECUTIVE OFFICE
                                    GROUND COMBAT SYSTEMS
                                     6501 E. ELEVEN MILE ROAD
                                   WARREN, MICHIGAN 48397-5000


         REPLY TO


AMSTA-CSC-J                                                              26 April 2012


MEMORANDUM FOR Director of Pricing and Logistics Acquisition - Acquisition and
Contract Management, Department of Defense Office of the Inspector GeneraL 4800 Mark
Center Drive, Alexandria. Virginia 22302-1500


SUBJECT: Draft Report: Better Cost-Control Measures Are Needed on The Army's Cost-
Reimbursable Services Contract for Logistics Support of Stryker Vehicles (Project No: D2011-
DOOOCH-0032.000)


I. Reference memorandum, DODIG, dated 26 March 2012, subject as above.

2. We have reviewed subject report DODIG Draft Report and agree with comments with your
report concl usions, recommendations 1 and 3, and related potential monetary benefits. Our
specific comments are contained in the enclosed reply.

3. The T ACOM Internal Review and Aud.it Compliance Office will track that status of the
corrective actions through completion and perform a fo llow-up review to verify implementation.

4. Point of contact for th.is




                                            e~
                                            Deputy. Program Executive omcer
                                             Ground Combat Systems
                                                                                                  *Omitted because
Enclosures                                                                                        of length. Copies
 Attachment I - Inventory and Cost CDRLs
 Attachment 2- SBCT Revised Table 4                                                               will be provided
 Attachment 3 - Contract Section B                                                                upon request.
 Attachment 4 - Revised Metric CDRLs
 Attachment 5 - PEO Manager Performance Standards




                                                             43
               Program Executive Office, Ground Combat Systems
               Comments to DOD Inspector General Draft Report,
   Better Cost-Control Measures Are Needed on the Army's Cost-Reimbursable
           Services Contract for Logistics Support of Stryker Vehicles
                     (Project No. D2011-DOOOCH-0032.000)

Objective: The overall objective of the audit was to evaluate the effectiveness of the
contractor logistics support sustainment strategy for Stryker vehicles.

DoDIG Conclusion: PMO Stryker and ACC-Warren officials did not effectively
implement cost-control procedures on the cost-reimbursable services contract, valued at
about $1.5 billion ($290.6 million annually), for logistics support of Stryker vehicles with
General Dynamics.

PMSBCT Summary Comments:

The recommendations in this report represent good acquisition and contracting practice
which will improve the PM SBCT logistics support strategy, plan and execution moving
forward. PM SBCT has initiated a business case analysis (BCA) of the logistics support
approach to be taken in the future. It will consider the type of support, contractor vs.
organic as well as identifying potential metrics. This BCA will be complete NLT 31 Dec
2012 and will inform the next logistics support contract to be awarded NLT 31 March
2013. PM SBCT has continued the complex transition from "blue" (contractor) support
to "green" (organic) support. All CONUS brigades have completed this transition.
OCONUS brigades will continue to utilize "blue" support for the foreseeable future until
deployments in theater cease. PM SBCT continues to analyze current contract
deliverables and perform annual monitoring of its part stock levels. These activities will
continue to be utilized in support of current delivery order planning/negotiation as well as
future requirements contracting planning/negotiation. As described in the report, the
SBCT program is being executed in a dynamic environment from the moment vehicles
came off the production line. Stryker brigades were immediately deployed into Iraq and
then later into Afghanistan simultaneously. The threats and OPTEMPOs for both
theaters vary significantly. Additionally, the threats and OPTEMPO continually change,
making forecasting of logistical activities very difficult, further complicating and
challenging the contracting approaches to be utilized. PM SBCT assigned a single fleet
metric of operational readiness to the contract in order to ensure the soldier availability of
the Stryker fleet. This constituted a completion form of contract lAW Federal
Acquisition Regulations. PM SBCT continues to strive for improvement and efficiencies
IAW Department of the Army guidance and embraces the recommendations contained in
this report as one set of inputs to accomplish this task.

It is PMSBCT's position:

      a. Our interpretation of applicable guidance and rej,>ulations resulted in effective
implementation of cost control procedures for the logistic support of Stryker vehicles.




                                                          44
                                                                                                  Final Report
                                                                                                   Reference




        b. That the contract was constructed consistent with the guidance and applicable
public laws.

         c. PMSBCT had various initiatives to address whether the contractor managed the
program and the contract cost effectively. This was done with insight into the CLS
inventory and cost via contract deliverables (Ref Attachment I "Inventory and Cost
CDRLs") and management control processes. The contractor' s inventory of parts was
visible directly only because the Stryker CLS contract has been executed as a Cost
Contract and therefore, the inventory falls under Contractor Acquired Property (CAP)
requirements. Under a Fixed Priced contract arrangement there would be limited
visibility into their inventory. With the possible exception of documentation received in
support of progress payments, the Government will have minimal insight once the CLS
effort is converted to FFP.

       d. That CLS inventory was consistently reviewed and considered during all CLS
contracting activities. In addition, per the regulations, activities to close out the current
cost contract (in FY13) will decide what material is excess and what residual material is
usable and available for transfer to the follow-on contract. The excess material will be
disposed through appropriate processes.

       e. That, the DO DIG acquires input from DOD/DA Service Contracting and PBL
experts (e.g. DAU) prior to final release of the audit report.

Performance Based Acquisition guidance specitically states that under a performance
based service contract "we should not be buying an end product, but rather the results of
the products". (See FAQ Al4, www.acquisition.gov/comp/seven?steos/FAOs-
general.html.) Yet one of this audit's finding is that a "Stryker Contract Did Not Specify
an End Product". The original CLS scope required "results" (per the guidance) in the
form of90% Operational Readiness Rate.

Service contracting is a complicated element of DOD acquisition. All involved with
Service contracting recognize the value in Dr. Carter's Better Buying on Tradecraft in
Service Contracting which identifies improvements that can be implemented by Defense
Acquisition officials in procuring services.

A significant inconsistent/factual concern is the misapplication of an obsolescence factor
of7.4% that has little relation to the design, operational and sustainment characteristics
of ground combat vehicles from the last thirty years (Reference Audit No. D20 11-               Page 19
DOOOOCH-0032.000, page 20 Table 4). The Stryker Brigade optempo most closely
resembles that of the Heavy Brigade Combat Teams with a mission closer to that of a
Bradley than of an Abrams (Bradley 14.4% and Abrams 17.2%). It is PMSBCT's
position that a more appropriate obsolescence factor for the Stryker would be 15%.
Usage of this obsolescence factor significantly reduces this audits conclusion regarding
excess Stryker inventory. (See Attachment 2, "SBCT Revised Table 4")




                                              2




                                                           45
PM SBCT Specific Comments to Report:

Specific list of audit report statements that PMSBCT believes are inaccurate is as follows.
Page numbers are in reference to Draft Report.

Page i, first column, second paragraph, Audit Report statement: "What We Found. PMO
Stryker and the Army Command (ACC) - Warren contracting officer did not effectively
implement cost-control procedures .. ".

PMSBCT response: Stryker has a broad array of implemented cost-control procedures of
which the report does not discuss. Almost none of these cost-control procedures were
reviewed by the audit team. Examination of the following procedures may have provided
the auditors with a different opinion: the standard cost methodology found in the Cost
Performance Reports (CPR), Monthly CLS cost management reviews that specifically
address the Contractors cost reduction and continuous improvement requirements,
weekly phone calls to CLS locations around the world (Afghanistan, Oman and Joint
Base Lewis McChord) and weekly 4-Star review of all Stryker parts shortage impacting
ORR (BUA/CUB, Battlefield Update Assessment/Commanders Update Brief).

Page i, second column, first paragraph, Audit Report opinion:

       a. "Did not establish the cost-reimbursable contract as one of the basic contract
          forms: the completion-form contract in which the contractor is required to
          deliver a specified, definitive end product of the term-form contract in which
          the contractor is required to provide a specified level of effort for a stated
          period of time."

           PMSBCT response: The Stryker contract is established as a Completion
           contract, with the completion being the 90% ORR. Section B of the contract
           clearly delineates that fact. See the CLIN structure selected by the PCO at the
           time the contract is generated in PADDS. Construction of the CLINs has
           always matched the regulatory guidance that PBA is by definition a
           Completion contract type. The difference between a Completion contract
           CLIN and a Level of Effort (LOE) CLIN are immediately apparent. (See
           Attachment 3 "Contract Section B").

       b. "A definitive end product" is required.

           PMSBCT response: The requirements for a Performance Based Acquisition
           are NOT a "definitive end product" as cited in the audit (See F AQ A 14,
           W\\lW .acguisition. gov/comp/seven?steps/F AQs-general .html). The Stryker
           contract is executed as a Service contract. The regulatory requirement is that
           PBA contracts are for a definitive goal or measurable result. 90% ORR is a
           measure of availability and meets the regulatory requirement and in
           conjunction with clear criteria on an exactly what deadlines a vehicles
           identified in the IETM, the CLS contract has clear measures of success.


                                             3




                                                        46
PAGE 6 (Footnote)

Audit Report statement: ".. in addition to allowable costs up to the maximum estimated
cost obligated".

PMSBCT response: Costs are not obligated on the contract. It would be correct to say
" . .. in addition to allowable costs subject to the Limitation of Funds Clause".

PAGE 7

Audit Report statement: "specifically, Stryker Brigade Combat Team ...did not establish
an effective means to measure operation costs."

PMSBCT response: The audit should have stated that the only validated usage data
available was the number of vehicles in use at specific locations (although the vehicles
were frequently moved to answer deployment or battle loss requirements). The auditors
omit that the PMO tracked the number of Stryker vehicles on a daily basis.

(Note: Mileage Usage is not supported by other studies. Note Rand Study "The Effect of
Equipment Age on Mission-Critical Failure Rates a Study of M l tanks dated 2004,
found:

",,it is noteworthy that some locations, controlling for age and usage, had more Ml
failures than others ...Consistent with the fact that significant numbers of failures were
recorded during months with zero usage, the model indicates that failures are likely to
occur (or at least be recorded) during periods of nonuse. Because the only usage-based
explanatory variable available was kilometers driven, it is likely that the positive
intercepts also stem from other tank activities, such as firing rounds or idling (e.g.,
running the tank engine while the tank is not moving in a defensive position). Such
"hidden" explanatory variables can generate failures but no increase in kilometers. (These
variables are termed hidden because they were not available for the study.)" (Reference
Page 28 of the Rand Study)

Further on page 69 of the Rand Study: "The analysis also showed that, after accounting
for age, different Army locations had dramatically different failure rates during the study
period. Additional study to understand the source of the differences could reveal further
opportunity to reduce fai lure rates. Finally, the analysis suggested that, for a given age
and location, higher usage corresponded to a lower failure rate (that is, failures per
kilometer). This may simply be an artifact of peacetime usage patterns characterized by
low and sporadic usage."

The data collected on the Stryker program suggests similar relationships. Note the higher
cost per mile in deployment rather than in garrison cited in the audit report. The auditors
fail to establish any relevancy. Currently the program tracks various operational and
usage information (i.e. engine hours and vehicle miles). However, the current vehicle
equipment does not provide real-time data and variance in the process of collecting the


                                             4




                                                         47
                                                                                                  Final Report
                                                                                                   Reference




data further complicates assessing the metrics. Current data is based on manually
recorded counts, acquired through sampling efforts and from other inconsistent methods
of tracking data.

PAGES

Inconsistent wording: "PMO Stryker and ACC-Warren officials (PMO/ACC officials)                 Revised
did not implement adequate cost-control procedures on the cost-reimbursable services
contract. .. " To be consistent and accurate with wording on page i. it should read "PMO
Stryker and ACC-Warren officials (PMO/ACC officials) did not effectively implement
cost-control procedures on the cost-reimbursable services contract. .. "

Audit Report statement: "establish the cost-reimbursable contract as one of the basic
contract forms: either the completion-form contract in which the contractor is required to
deliver a specified, definitive end product. .. As a result, the Stryker contractor logistics
support contract had no tangible deliverable."

PMSBCT response: Regulatory guidance does not require a "product" or "tangible
deliverable" for a PBA. PBA guidance says just the opposite; that is a PBA should not be
focused on acquiring a product. From the FAQ section of the Seven Steps to a PBA,
referenced above, PBA is generally focused on services or measurable results.

Audit Report statement: "no means to measure the efficiency if the contractor's cost
performance or actual contract overruns or under runs in relation to fee".

PMSBCT response: The Contract Funds Status Report (COI9) provides indicators of
overruns and under runs on a monthly basis and is reviewed by Contracting and Business
Management on a monthly basis.

Audit Report statement: "Further, the sole focus on the operational readiness rate created
an incentive for the contractor to spend all available funds on CLS inventory .. . "

PMSBCT response: The contractor consistently under-ran the contract (approximate $10
million per year). If the IG statement were true the opposite would be expected. In
addition 100% of the cost savings under this contract go to the Government when the
contractor under runs and that savings compounds because the improved practices and
processes, design improvements also are the basis for out year negotiations and efforts.

Audit Report statement: "We calculated that about $335.9 million used to accumulate
inventory could have been put to better use." (Reference Audit No. D2011 -DOOOOCH-              Page 19
0032.000, page 20 Table 4).

PMSBCT Response: The basis of the calculation was flawed from three perspectives.
Expenditures for each year are not final at this point, the obsolescence factor is not
realistic and year five of the contract is not complete. (See Attachment 2 "SBCT Revised
Table 4")

                                              5




                                                          48
Page 9:

Audit Report statement: "Specifically, PMO/ ACC officials limited the rating of
contractor performance to a single measurable outcome .... and a contract ceiling price."

PMSBCT Response: Initial award might have been for a ceiling price but contractually
all line items have been definitized. There have been urgent requirements placed on
contract at 'ceiling' prices but those line items have all been definitized. A ll CLS
contracts are definitive contracts they are NOT contracts or contract modification with
'ceilings'.

PAGE 10

Audit Report statement: "PMO Stryker Officials Measured Only the Operational
Availability".

PMSBCT response: Title of this section should be corrected and expanded to "PMO
Stryker Officials Measured the Operational Availability with regards to the PBL portion
of the contract." The PMO tracks many measures of cost effectiveness, and reviews key
data and elements of the program.

Zero balance items and critical due-ins were tracked on a daily basis and reported to the
AMC Commanding General each week. Cost Reports were contractually required to be
submitted on a monthly basis. Inventory reports were submitted annually. Conditional
acceptance retrofits were tracked (in other parts of the contract, but often implemented
through CLS) and there are also a tremendous amount of CDRL data that provided
tracking (Ref Attachment l "Inventory and Cost CDRLs). Logistics footprint
"government/contractor size or presence of logistics to deploy" was reviewed thoroughly
and directly addressed in the contract or contract negotiations.

PAGE 12

Audit Report statement: "Did not include an essential metric relating to cost per unit
usage or miles driven in the Stryker PBL contract."

PMSBCT response: I . Inclusion of a metric relating to cost per unit usage or miles driven
is not a PBL requirement. 2. There was a "usage factor" which was the number of
vehicles that had to be supported. The number of vehicles delivered each year was
included in the requirements contract as were the number of vehicle deprocessed at each
location. The numbers of vehicles in a Brigade of a particular configuration were
documented. The number of vehicles in the Ready to Fight (RTF) category and the
number meeting other customer requirements were known (although for security reasons
there was limited information in the contract on specific users and locations). The
Stryker PMO tracks each vehicle and its location. The numbers of Stryker Vehicles were
the driving factor in calculating the CLS estimated contract amount. Therefore the



                                             6




                                                         49
                                                                                                   Final Report
                                                                                                    Reference




Stryker program contract is based on "usage" or unit of vehicles fielded or used in
garrison or deployment.

Page 13:

Other facts to consider: Certainly in a cost contract there are concerns about the
additional inventory, however, it is not an Army Logistic footprint issue. If parts grow
more reliable as a result of the Defense Acquisition Executive directed Reliability
Growth program (on the Stryker NBCRV or MGS for instance), fewer parts enters the
Army's logistic footprint. This may result, at least initially, in more inventories staying in
the contractor's warehouse. The CLS contract was constructed with a requirement for the
contractor to provide the latest configuration, more reliable parts and therefore reduce the
Army's footprint. That could result in a temporary increase in the contractor's warehouse
stock when average monthly demand goes down. Over time the inventory will be
consumed but at a slower pace than expected as a byproduct of reliability growth. The
audit misrepresents the contractor's inventory of parts as part of the logistic footprint. It
overlooks the improvements in reliability and the short term impacts.

Page 17:

Other facts to consider: "Term" has a lot of meanings and it depends on exactly how the
question was asked or understood. There is the "term" or duration of the contract, there
are the 'terms' of a contract and there is "Term" contract (or more commonly described
as a level of effort or LOE contract).

There are 'efforts' or scopes of all types in the Stryker Requirements contract. This
contract includes some LOE and some completion types within the Stryker Requirement
Contract. Even, within the CLS scope there are some individual paragraphs that are level
of effort (such as supply chain management or certain obsolescence reporting
requirements).The preponderance of the CLS effort is completion and tied to the 90%
Operational Readiness and related training requirements.

Page 18
                                                                                                 Revised
Audit Report statement: "PMO Stryker Did Not Transfer Excess Material to follow-On
Contract"

PMSBCT response: Per Contract provision H.33 .1 "All material and parts procured and
accountable under previous contracts were transferred to Contract W56HZV-07-D-
M112 ... "




                                              7




                                                           50
                                                                                              Final Report
                                                                                               Reference




Page 19 and Table 4

Audit Report statement: " ...resulting in about $335.9 million used to accumulate
inventory that could have been put to better use." (Reference Audit No. D2011-
DOOOOCH-0032.000, page 20 Table 4).
                                                                                            Page 19

PMSBCT response: Factual errors made by the DODIG included using contract funding
instead of actual expenditures in their formula, using an obsolescence rate that was too
low, and using a period of performance (year 5 on the table) that was not yet completed.)
(See Attachment 2 "SBCT Revised Table 4"). Using DOD IG Table 4 calculations with a
15% obsolescence factor and taking out incomplete year 5 would result in $4.9 million in
excess inventory. This excess inventory is well within the range of acceptable excess on
a program of this size and complexity.

Page 20

Audit Report statement: Factually incorrect statement: "As a result of the audit, PMO
Stryker identified $152.4 million that could be put to better use.'

PMSBCT response: It is correct to state that there were decreases in the CLS Delivery
Orders 0169 and 0269. Since 2005 the SBCT program has been transitioning from CLS
to organic/military support (Blue to Green). These deobligations were a direct result of
executing the Blue to Green transition. While the total savings of$152.4 million
occurred during the time of the audit, there is no connection between the two events.




                                             8




                                                        51
DOD IG Recommendation 1: Require the Project Manager for Stryker Brigade Combat
Team to:
        a. Establish an appropriate cost-per-unit usage metric if a decision is made to
continue logistics support for Stryker vehicles as a performance-based logistics contract.
        b. Establish procedures to monitor the cost-per-unit usage metric if logistics
support for Stryker vehicles is procured under a performance-based logistics contract.
        c. Define contract remedies that include both positive and negative fee measures
related to inventory turns and inventory accuracy metrics for Stryker vehicles.
        d. Use one of the basic contract forms, either term or completion, and define a
tangible deliverable if logistics support for Stryker vehicles is procured under a cost-
reimbursable contract as required by Federal Acquisition Regulation Section 16.306,
"Cost-Plus-Fixed-Fee Contracts. "
        e. Determine which portions of the Stryker logistics support contract can be
transitioned to lower risk firm-fixed-price or fixed-price incentive type contracts and take
appropriate action.

Program Executive Officer Ground Combat Systems Comments:

Recommendation l.a. Concur in part. SBCT PMO is examining how to make this work
through the current scope of work development and the Business Case Analysis both for
the follow-on contract. If the BCA leads to a decision to continue PBL, PMSBCT will
establish additional metrics and procedures to monitor those metrics (in addition to ORR)
in future contracting efforts (e.g. cost per unit). Analysis, assessment and selection of
additional metrics will take into consideration the ability to accurately collect data to
support these metrics. Currently the program tracks various operational and usage
information (i.e. engine hours and vehicle miles). However, the current vehicle
equipment does not provide real-time data and variance in the process of collecting the
data further complicates assessing the metrics. The BCA is expected to be completed by
31 Dec 2012. Target date for establishment of additional metrics and procedures to
monitor those metrics, should analysis lead to a decision to continue PBL is 31 Mar 2013.

Recommendation l.b. Concur in part. See I. a

Recommendation I.e Concur in part. For the last year of the current contract we
instituted metrics regarding inventory turns and inventory accuracy which are reported
via contract deliverable, (Ref. Attachment 4 "Revised Metric CDRLs"). PMSBCT has
not incentivized these metrics but plan on doing so on the follow on contract, scheduled
to be awarded no later than 31 Mar 2013.

Recommendation l.d. Concur. Should the BCA inform the program that PBL will be
continued and if a cost reimbursable contract is utilized, the PBL effort will be either
term or completion in accordance with Federal Acquisition Regulations 16.306. The
BCA is expected to be completed by 3 I Dec 20 I 2. Target date for the follow on contract
as either term or completion, if PBL is continued and a cost reimbursable contract is
used, is scheduled for execution no later than 31 Mar 2013.


                                             9




                                                          52
Recommendation I.e. Concur. Stryker PMO through the ongoing Business Case
Analysis process is looking at the possibility oftransitiotting portions of the follow-on
CLS effort to Firm Fixed Price (e.g. scheduled services). The BCA is expected to be
completed by 31 Dec 2012. Target date for potentially transitioning the portions of the
follow on CLS effort to Firm Fixed Price, should the BCA analysis lead to a decision to
do so, is 31 Mar 2013.

DOD JG Recommendation 3:
        a. Ensure that the appropriate staff in the Project Management Office for
Stryker Brigade Combat Team receive traitting in performance-based logistics support
strategies and that performance standards address whether proper cost control metrics
were included in any performance-based logistics or cost-reimbursable contracts.
        b. Continue to review the operational support costs for Stryker vehicles and apply
more of the Army's current Stryker inventory to future requirements, allowing additional
contract funding to be put to better use.

Program Executive Officer Ground Combat Systems Comments:

Recommendation 3a: Concur.

The PM Stryker endorses Dr. Carter's Better Buying on Tradecraft in Service Contracting
and believes it should be combined with foundational training in Fiscal Law which also
impacts the construction of Service contract requirement. The PEO is further sponsoring
work directive training that has prepared for PEO staff. It will cover PBA scope
development for all the PMs cognizant staff in GCS). The PEO and PMSBCT, has
arranged for its acquisition workforce members in the Stryker Brigade Combat Team to
receive traitting in performance-based logistics support strategies no later than 31
December 2012. ln addition, PMSBCT logistics, engineering and business management
personnel have been scheduled to attend the Performance-Based Life-Cycle Product
Support conference in Washington, D.C. on 16- 18 July 2012. In addition, al l manager
performance standards within the PEO already include Cost saving Initiatives. (Ref.
Attachment 5 PEO Manager Performance Standards)

Recommendation 3b. Concur in part.

Stryker has in the past and continues to review operational support costs and effectively
manage current inventory. All available inventory is considered for application to future
requirements and program estimates/budgets are adjusted accordingly. The SBCT
operational environment is complex and varied; therefore some level of excess inventory
is necessary to support fluid combat operations.

Report Appendix D. Summary of Potential Monetary Benefits:
      Type of Benefit: Internal Control-Economy and Efficiency. Reduces costs for
      future requirements by applying current Army assets to satisfY requirements.



                                            10




                                                         53
       Amount of Benefit: Funds put to better use of$152.4 million, including $68.7
       million deobligated on contract W56HZV-07-D-Mll2 delivery order 0169 for
       Program Year 2011 (Oct 2011 to Feb 2012) requirements: $83.7 million cost
       avoidance in renegotiated amount on delivery order 0269 for Program Year 2012
       (Mar 2012 to Feb 2013) requirements.
       Account: Army Working Capital Fund - 97X4930.001

Program Executive Officer Ground Combat Systems Comments:

It is correct to state that there were decreases in the CLS Delivery Orders 0169 and 0269.
Since 2005 the SBCT program has been transitioning from CLS to organic/military
support (Blue to Green). These deobligations were a direct impact of executing the Blue
to Green transition. While the total savings of$152.4 million occurred during the time of
the audit, there is no connection between the two events.

A more applicable benefit, as a result of this audit, is the establishment of a DOD wide
multifunctional cadre of experts, including contracting and logistics, to support all future
DOD PBL contracts.




                                             II




                                                          54
                                 DEPARTMENT OF THE ARMY
                           HEADQUARTERS, U.S. ARMY MATERIEL COMMAND
                                      4400 MARTIN ROAD
                                REDSTONE ARSENAL, AL 35898-5000



AMCIR


MEMORANDUM FOR Department of Defense Inspector General (DoD! G), ATI'N:
• • • • • • • • • • • • • Logistics Acquisition Division, Acquisition and Contract
Management Directorate, Room 300, 400 Army Navy Drive, Arlington, VA 22202-4704

SUBJECT: Command Reply to DoDIG Draft !Report- Better Cost-Control Measures Are
Needed on the Army's Cost-reimbursable Services Contract for Logistics Support of Stryker
Vehicles (Project No. 02011-DOOOCH-0032.000)


I. The U.S. Army Materiel Command (AMC) has reviewed the subject draft report and the
responses from the U.S. Army Contracting Command (ACC). AMC endorses the enclosed ACC
response.

2. The AMC point of contact is




Encl




                                                         55
                                  DEPARTMENT OF THE ARMY
                                 U.S. ARMY CONTRACTING COMMAND
                                         3334A WELLS ROAD
                                 REDSTONE ARSENAL, AL 35898·5000
         REPLYlO
         ATTENTKlN OF:


                                                                            2 0 APR 2012
AMSCC-IR


MEMORANDUM FOR                            Director, Internal Review and Audit Compliance
Office, Headquarters, U.S. Army Materiel Command. 4400 Martin Road. Redstone Arsenal, AL
35898

SUOJECT: Better Cost-Control Measures Arc Needed on the Army's Cost-Reimbursable
Services Contract for Logistics Support of Stryker Vehicles. (Project No. D-201 1 CH-0032)
(Dl234) (10507)


I. Reference memorandum and audit report. Office of Inspector General -Department of
Defense. 26 March 2012, subject: same as above.

2. The Army Contracting Command (ACC) concurs with the enclosed comments provided by
ACC-Warren.

3. The ACC point of contact is· · · · · · · · · · · · · · · · · · ·




Encl                                           CAROL E. LOWMAN
                                               Executive Director




                                                           56
                                    DEPARTMENT OF THE ARMY
                           UNITED STATES ARMY CONTRACTING COMMAND-WARREN
                                         6501 EAST 11 MILE ROAD
                                      WARREN, MICHIGAN 48397·5000

          REPLY TO
          ATTEN TION OF:



cerA-A                                                                     19 April 20 12


MEMORANDUM FOR: Executive Director. U.S. Army Contracting Command, AMSCC-IR.
3J34A Wells Road. Redstone Arsenal, AL 35898-5000 ATrN: t\CC-HQs. Internal Revit:w
and Audit Compliance Office· · · · · · · · · · · · · · · · · · · · ·

SUBJECT: Draft Report: Better Cost-Control Measures Are Needed on The Arn1y"s Cost-
Reimbursable Services Contract for Logistics Support of Stryker Vehicles (Project No: D2011-
DOOOCH -0032.000)

I . Reference memorandum. DO DIG. dated 27 March 20 12, subject as above.

2. We have reviewed the subject DODIG Draft Report and agree with your conclusions and
report recommendat ion 4. Our specific comments are contained in the enclosed response.

J. The TACOM Life Cycle Management Command (LCMC). Internal Review and Audit
Compliance wil l track the status of the corrective actions through completion and perform a
follow-up review to verify implementation.

4. Point of contact for thi s reply is




End




                                                           57
                      Army Contracting Command- Warren
                Com ments to DOD Inspector General Draft Report,
    Better Cost-Control Measures Are Needed on the Army's Cost-Reimbursable
            Services Contract for Logistics Suppor t of Stry ker Vehicles
                      (Project No. D2011 -DOOOC H-0032.000)

Objective: DoDI G's overall objective was to evaluate the effectiveness of the contracto r
logistics support sustainment strategy for Stryker vehicles.

DoDIG Conclusion: PMO Stryker and ACC-Warren officials did not implement
adequate cost-control procedures on the cost-r~imbursable services contract. valuc:d at
abo ut $1.5 billion ($290.6 million annually), for logistics support of Stryker vehicles with
General Dynamics.

Additional facts:

As part of the current Contractor Logistic Support (CLS) e ffort, the contrac!Or is required
to report cost informatio n and to meet an Operational Readiness Rate performance
requirement. Cost information is required on the following CDRLs: Contract Funds
Status Report: Contract Work Breakdown Structure: Cost Data Summary Report:
Functional Cost-Hour Report; and Limitation of Funds Analysis Report. In additio n. as a
result of interim discussions with the DoDIG. ACC-WRN has incorporated the following
pcrfom1ance metrics into the final year (FY1 2) of the existing Stryker requirements
contract for CLS: requisition fill time: inventory turns: inventory accuracy at Auburn;
and first pass stock availability.

Recommendation 4: Ensure that the contracting officer for Stryker Brigade Combat
Team receive training in performance-based logistics support strategies and that
performance standards address whether proper cost control metrics were included in any
performance-based logistics or cost-reimbursable contracts.

Executive Director, Army Contracting Command-Warren Comments: Concur. The
Executive Director, Am1y Contracting Command-Warren. has armnged for the
contracting o tlicer and contract specialist fo r Stryker Brigade Combat Team to receive
trainin g in performance-based logistics support strategies no later than 3 1 December
2012. In addition, both the contracting officer and contract specialist have been
scheduled to attend the Pcrformance-I3ascd Life-Cycle Product Support conference in
Washington. D.C. on 16- 18 J uly 2012. The PCO working this program is covered by
Acquisition Demo Performance Objectives appropriate for the position (NH-03.
Supervisory Contract Specialist). The objectives. as currently written. provide ample
o pportunity for the supervisor to sufficiently evaluate employee performance with regard
to proper contracting practices (i.e. including proper cost control metrics in performa nce-
based logi stics or cost-reimbursable contracts). We will ensure that the Contracting
Ofticer is rated against these specific performance elements. The target date for
completion is 3 1 Dec 201 2.




                                                          58
